<html>
<title> - SECURING FEDERAL FACILITIES: CHALLENGES OF THE FEDERAL PROTECTIVE SERVICE AND THE NEED FOR REFORM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






   SECURING FEDERAL FACILITIES: CHALLENGES OF THE FEDERAL PROTECTIVE 
                    SERVICE AND THE NEED FOR REFORM

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON CYBERSECURITY,
                       INFRASTRUCTURE PROTECTION,
                       AND SECURITY TECHNOLOGIES

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 13, 2011

                               __________

                           Serial No. 112-38

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
 72-258 PDF               WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

                                 ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                Daniel E. Lungren, California, Chairman
Michael T. McCaul, Texas             Yvette D. Clarke, New York
Tim Walberg, Michigan, Vice Chair    Laura Richardson, California
Patrick Meehan, Pennsylvania         Cedric L. Richmond, Louisiana
Billy Long, Missouri                 William R. Keating, Massachusetts
Tom Marino, Pennsylvania             Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                    Coley C. O'Brien, Staff Director
                    Alan Carroll, Subcommittee Clerk
                  Vacancy, Minority Subcommittee Lead













                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies...................................................     1
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies...................................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     4

                               WITNESSES
                                Panel I

Mr. L. Eric Patterson, Director, Federal Protective Service:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Mr. Mark L. Goldstein, Director, Physical Infrastructure, 
  Government Accountability Office:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11

                                Panel II

Mr. Stephen Amitay, Legislative Counsel, National Association of 
  Security Companies:
  Oral Statement.................................................    36
  Prepared Statement.............................................    38
Mr. David L. Wright, President, National Federal Protective 
  Service Union, American Federation of Government Employees:
  Oral Statement.................................................    45
  Prepared Statement.............................................    47

 
   SECURING FEDERAL FACILITIES: CHALLENGES OF THE FEDERAL PROTECTIVE 
                    SERVICE AND THE NEED FOR REFORM

                              ----------                              


                        Wednesday, July 13, 2011

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Cybersecurity, Infrastructure Protection, 
                                 and Security Technologies,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:10 a.m., in 
Room 311, Cannon House Office Building, Hon. Daniel E. Lungren 
[Chairman of the subcommittee] presiding.
    Present: Representatives Lungren, Meehan, Long, Marino, 
Clarke, Richardson, Richmond, Keating, and Thompson.
    Also present: Representative Jackson Lee.
    Mr. Lungren. This hearing will come to order. I understand 
that there are several Members who are detained who will be 
here in a few minutes, but with Mr. Richmond's assistance we 
will start.
    Do you have a unanimous consent request?
    Mr. Richmond. Yes, Mr. Chairman. I would ask unanimous 
consent to allow the representative from Texas, Ms. Sheila 
Jackson Lee, to participate on the panel. She is on the full 
committee, just not the subcommittee.
    Mr. Lungren. Without objection, so ordered.
    The Subcommittee on Cybersecurity, Infrastructure 
Protection, and Security Technologies is holding a hearing 
today on the subject of ``Securing Federal Facilities: 
Challenges of the Federal Protective Service and the Need for 
Reform.'' We have two panels of very distinguished witnesses we 
are to hear today and I will recognize myself for an opening 
statement.
    The Federal Protective Services is a vital component of our 
Nation's homeland security. Securing Government buildings is 
the mission of FPS and is critical to protecting hundreds of 
thousands of Government employees working in Federal buildings 
across the Nation. These Federal buildings have been assessed 
as key facilities, important to the operation of our 
Government, and therefore deserving of FPS protection.
    Recent terrorist attacks have demonstrated that security at 
these Government buildings is absolutely necessary. In 1995 the 
Murrah Federal Building in Oklahoma City was destroyed with a 
truck bomb killing 168 people, including 19 children.
    Since then, other attempted attacks have occurred in 
Government and public facilities, including the fatal shooting 
of the Holocaust Museum security guard in June 2009 in 
Washington, DC; the man who flew a small plane into the 
Internal Revenue Service office in Austin, Texas, killing an 
IRS employee in February 2010; and the recent discovery of an 
improvised explosive device placed near the McNamara Federal 
Building in Detroit, Michigan.
    The Detroit IED incident was an example of how, in my 
judgment, not to respond to suspicious packages. The egregious 
mishandling of this IED package raises serious questions about 
whether the FPS is fulfilling its mission to secure Federal 
buildings and demonstrates the continued vulnerability of 
Federal facilities and the safety of the Federal employees who 
occupy them.
    Our hearing today will examine several perennial problems 
which have impacted the FPS mission. One problem identified by 
GAO and illustrated by the IED incident is the need for 
enhanced training for contract guards.
    This training curriculum and FPS certification should be 
available to the contract guards to ensure that they possess 
the appropriate skills to meet their contract requirements. 
Additionally, GAO also highlighted the need for more robust FPS 
oversight of the 14,000 contract security guard force.
    Poor management of the Federal Protective Service is 
another problem. Current plans call for the FPS to once again 
reorganize within the NPPD Directorate. If completed, by my 
count this would be the third reorganization the FPS has been 
involved in since leaving GSA and joining the Immigration and 
Customs Enforcement, otherwise known as ICE, in 2003.
    I would believe it extremely difficult to develop and 
implement the policies and procedures necessary to effectively 
secure Federal buildings when there is little continuity in 
leadership and structure within FPS, to say nothing of the 
disruption which takes place when you have a reorganization of 
any organization, public or private.
    Last year the Committee on Homeland Security held hearings 
on the Federal Protective Service in response to a series of 
scathing GAO reports and covert tests which identified serious 
shortcomings in the Federal Protective Service's ability to 
protect Government facilities. One hearing was directly related 
to whether a Federalized guard force would improve security at 
Federal buildings. Director Schenkel noted at this hearing that 
a Federalized guard staff would increase the cost per guard by 
32 percent and the Department had no evidence a Federalized 
guard staff would improve security.
    A final thought regarding recent suggestions to Federalize 
the FPS contract workforce: Administrator Pistole, of the TSA, 
tried to argue before our subcommittee some months ago that the 
TSA Federal workforce was in some ways smarter and more skilled 
than private contractors who screen at SPP airports. While I 
have gladly and happily represented many Federal employees, 
both in my current term in the Congress and when I was in 
Congress before, I totally reject the administrator's premise 
and believe that if we educate and train workers equally that 
the private contractor is every bit as capable as the Federal 
worker.
    That is why I have been a strong advocate for TSA's 
Screening Partnership Program, which allows airports to opt out 
of Federal screening and hire private screeners. They usually 
make that decision, and some would decide that they continue 
with Federal screeners; others have decided or would decide 
that they wish to go with private screeners.
    I don't think that we need to influence that in a way that 
would just add to the massive Federal workforce, particularly 
when we are under such budget constraints today. I would think 
we would encourage competition and opportunity so that we would 
actually have better performance, both in the private sector 
and the public sector, and in that way it is the private sector 
providing another efficient alternative. I think that you just 
get improvement in performance when you have that kind of 
competition.
    I look forward to hearing from our witnesses this morning 
about what they believe the FPS challenges are and how we can 
improve the security of our Government facilities.
    I now recognize the gentlelady from New York, the Ranking 
Member of this subcommittee, Ms. Clarke, for her opening 
statement.
    Ms. Clarke. Thank you very much, Mr. Chairman, and thank 
you for convening this hearing.
    We are here to examine the Federal Protective Service's 
management of its contract guard service and its status within 
the National Protection and Programs Directorate. FPS is 
responsible for safeguarding Federal facilities. FPS employs 
13,000 contract security guards who protect 9,000 Federal 
buildings all over our Nation.
    Despite this important role, FPS has long been viewed as a 
stepchild within the Department. Since FPS moved to the 
Department from the General Services Administration poor 
management practices and funding issues have hampered its 
ability to fulfill its mission.
    This committee has held multiple hearings on FPS. GAO has 
issued several reports documenting the challenges that FPS 
faces.
    Mr. Chairman, we know what the issues are facing FPS and we 
are here today to find out what concrete solutions are being 
put in place.
    I come from New York City, a well-known target for 
terrorist attacks. I am a Member of this committee because I 
want the rest of this country to learn from New York's 
experience. Experience has taught the people of New York about 
the need for robust protection of critical facilities.
    In January Ranking Member Thompson reintroduced H.R. 176, 
the Federal Protective Service Improvement and Accountability 
Act of 2011. I am proud to be a co-sponsor of this bill. This 
bill calls for improvement in FPS management, stabilization of 
the FPS workforce, and a study to determine whether the 
conversion of contract guard staff into Federal employees would 
enhance the protection of Federal facilities.
    Mr. Chairman, we know the problems. The only question 
remaining is whether we have the will to solve them.
    Here on Capitol Hill we are fortunate. All of our buildings 
are protected by Capitol Police. As Members of Congress we know 
that the Capitol Police will stand between us and all threats.
    Every person who works in or visits a Federal building 
should share our sense of safety and the confidence we have in 
those who protect those hallowed halls. I am sad to say that as 
long as doubts about training and contracting surround FPS, 
feelings of security and confidence will be misplaced.
    Mr. Chairman, I look forward to working with you to reform 
this agency and yield back the remainder of my time.
    Mr. Lungren. I thank the gentlelady for her comments.
    Now the Chairman would recognize the Ranking Member of the 
full committee, the gentleman from Mississippi, Mr. Thompson, 
for any statement that he might have.
    Mr. Thompson. Thank you very much, Mr. Chairman, for 
holding today's hearing. I welcome our panel of witnesses, 
also.
    Mr. Chairman, during the last two Congresses the committee 
held several full committee oversight hearings on the Federal 
Protective Service. Those hearings examined the effectiveness 
of that agency's efforts to train, supervise, and monitor its 
contract guard service, contract management, and its placement 
within DHS. Promises of reform were made, a new director was 
hired, and FPS was transferred from ICE to NPPD.
    The committee was told that FPS would develop a computer 
system to track training and certification of contract guards. 
The committee was told that this system would ensure that every 
guard had the right credentials and was capable of doing the 
job. For a minute I believed.
    Then in February 2011 I was jarred back into the reality of 
FPS. A bag containing a bomb was left sitting outside of the 
McNamara Federal Building in Detroit. A security guard employed 
under a contract did not understand the possible threat. He 
brought the bag inside the building.
    For 3 weeks that bag was a concealed bomb that sat inside 
the lost and found of a Federal building in Detroit. Finally, 
in mid-March, an FPS inspector discovered the bag, scanned it, 
realized the danger, and acted appropriately.
    This incident paints the clearest picture I have seen of 
the importance of training and the reality of the threat we 
face. This incident also illustrates the other problems at FPS: 
Its fundamental ineptitude at managing contracts.
    Shocking as it may seem, in the aftermath of this incident 
FPS did not terminate the contractor. Instead, FPS imposed a 
small monetary fine and accepted the contractor's offer to 
conduct additional training.
    It is my understanding that this contractor earns $1.6 
million a year from guarding this one building in Detroit. I 
cannot understand how or why we pay companies that do not 
perform, but apparently paying for nonperformance is not a 
problem at FPS.
    Recently FPS decided to abandon the development of the 
promised computer system, called RAMP. That system was supposed 
to help FPS monitor and verify the status of guard 
certifications and training.
    After spending $41 million on this contract FPS has 
concluded that the system doesn't work and cannot be made to 
work. Where I come from $41 million is still considered a lot 
of money.
    These practices cannot be allowed to continue. Mr. 
Chairman, I am pleased that you have decided to examine FPS. I 
suggest you begin where we left off in previous Congress. I 
would recommend that you take a look at H.R. 176, a bill that 
reflects this committee's extensive oversight in this area.
    The Nation cannot afford additional delay in securing 
Federal facilities. Further, we cannot tolerate wasteful 
spending in pursuit of unproven technologies and schemes. Now 
is the time for FPS to be held accountable.
    Thank you, and I yield back.
    Mr. Lungren. I thank the gentleman for his statement.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record. We are pleased to 
have two very distinguished panels of witnesses before us today 
on this important subject.
    L. Eric Patterson was appointed director of the Federal 
Protective Service, a subcomponent of the National Protection 
and Programs Directorate, in September 2010. He previously 
served as the deputy director of the Defense 
Counterintelligence and HUMINT center at the Defense 
Intelligence Agency.
    Prior to joining DIA, Mr. Patterson served as a principal 
with Booz Allen Hamilton, where he supported two of the Defense 
Technical Information Center analysis centers, one focused on 
information assurance and the other on the survivability and 
vulnerability of defense systems. Mr. Patterson is a retired 
United States Air Force Brigadier General with 30 years of 
service, and we thank you for that service.
    Mark L. Goldstein is director of physical infrastructure 
issues at GAO. Mr. Goldstein is responsible for the agency's 
work in Federal property and telecommunications. A former 
award-winning journalist and author, his other public service 
work has included roles as chief of staff to the D.C. Financial 
Control Board and chief investigative staff to the Senate 
Committee on Government Affairs.
    Thank you, gentlemen, for appearing here.
    Director Patterson, General Patterson, you are recognized. 
We would tell you that your written statements will be made a 
part of the record in full and we would ask you to try and 
confine your comments to 5 minutes, after which time, hearing 
from both of you, we will have a round of questions by the 
panel.

 STATEMENT OF L. ERIC PATTERSON, DIRECTOR, FEDERAL PROTECTIVE 
                            SERVICE

    Mr. Patterson. Good morning. Thank you, Chairman Lungren, 
Ranking Member Clarke, and the distinguished Members of the 
subcommittee. I would also like to thank Ranking Member 
Thompson for making time to be here today.
    My name is Eric Patterson, and I am the director of the 
Federal Protective Service within the National Protection and 
Programs Directorate of the Department of Homeland Security. I 
am honored to appear before you today to discuss the work of 
the Federal Protective Service.
    The Federal Protective Service, or FPS, is responsible for 
providing risk assessment and mitigation, physical security, 
and Federal law enforcement activities at more than 9,000 GSA-
owned and leased Federal facilities. These facilities are 
located in all 50 States and United States territories. In 
addition, we provide law enforcement and security services to 
non-GSA Federal properties throughout the country.
    Each day FPS is responsible for the safety of more than 1 
million people who pass through our security portals. Each year 
we cover more than 1,000 demonstrations and disturbances, make 
more than 1,600 arrests, and confiscate more than 700,000 
dangerous objects and contraband, including weapons.
    FPS is divided into 11 regions Nation-wide and employs more 
than 900 Federal law enforcement officers supervising 
approximately 14,000 contract protective security officers. We 
also use four MegaCenters to coordinate incident response 24 
hours a day, 7 days a week
    I have set priorities for our service that are challenging 
yet realistic. I continue to closely monitor performance and 
hold service providers accountable to ensure that they are 
performing in full compliance with our contracts.
    In addition, FPS has been the subject of several Government 
Accountability Office reports in recent years and I want to 
ensure all of you that addressing GAO recommendations is a top 
priority. For example, FPS now conducts unannounced inspections 
to evaluate the effectiveness of contract protective security 
officers in detecting the presence of unauthorized persons or 
potentially disruptive or dangerous activities in or around 
Federal facilities through a program called Operation Shield. 
Operation Shield also deserves--serves as a visible, proactive, 
and random deterrent to disrupt the planning of terrorist 
activities.
    FPS is also taking steps to revise its development approach 
of the Risk Assessment Management Program, also known as RAMP. 
RAMP will provide FPS personnel with a centralized source of 
information for Federal facilities they protect.
    The development for the second generation of RAMP will 
address GAO's recommendations, such as providing a contract 
protective security officer certification validation process. 
The second generation of RAMP will also help FPS track trends 
and correct any identified deficiencies.
    FPS also is taking action that--when mistakes are made. For 
example, in response to an incident at the Patrick V. McNamara 
Federal Building in Detroit, Michigan, FPS dispatched a mobile 
training team to provide additional training at the facility 
and conducted an audit of all training records in the region to 
assess compliance.
    FPS also took action against the contract company as a 
result of the incident, including a contract deduction. In 
addition, the individual primarily responsible for the mistake 
was terminated and is barred from working at FPS facilities.
    As indicated, FPS remains committed to its mission to 
prevent, deter, mitigate, and defeat terrorist and criminal 
acts against anyone working in, or visiting, or passing through 
our Federal facilities that we protect.
    Again, thank you for the opportunity to discuss FPS with 
you today, and I am pleased to answer any questions you might 
have.
    [The statement of Mr. Patterson follows:]
                Prepared Statement of L. Eric Patterson
                             July 13, 2011
    Thank you Chairman Lungren, Ranking Member Clarke, and the 
distinguished Members of the subcommittee. My name is Eric Patterson, 
and I am the director of the Federal Protective Service (FPS) within 
the National Protection and Programs Directorate (NPPD) of the 
Department of Homeland Security (DHS).
    I am honored to appear before you today to discuss the actions that 
FPS has undertaken to secure thousands of Federal facilities across our 
country and protect millions of Federal workers, contractors, and 
visitors who pass through FPS security portals on a daily basis to 
conduct business in these facilities.
                             fps background
    This year, FPS is celebrating its 40th year of service to the 
Nation under its current name. Although our service functions and law 
enforcement authorities can be traced much further back in time, FPS 
has been part of the General Services Administration (GSA), the U.S. 
Immigration and Customs Enforcement (ICE), and most recently, NPPD.
    FPS is responsible for the safety of more than a million people who 
pass through our security portals each day. More than 700,000 dangerous 
objects and contraband, including weapons, are confiscated each year at 
FPS screening posts. Our FPS officers complete hundreds of building 
security assessments, cover more than 1,000 demonstrations and 
disturbances, and make more than 1,600 arrests annually.
    FPS's security mission extends to the approximately 150 
Congressional offices housed in Federal facilities located across the 
country. FPS is responsible for risk assessment and mitigation, 
physical security, and Federal law enforcement for more than 9,000 GSA-
owned and leased Federal Government facilities in all 50 States and the 
U.S. territories. In addition, we provide law enforcement and security 
services to numerous non-GSA Federal properties throughout the country. 
FPS coordinates incident responses through four MegaCenters. Each 
MegaCenter monitors multiple types of alarm systems, closed circuit 
television, and wireless dispatch communications within Federal 
facilities throughout the Nation. These centers--located in Michigan, 
Colorado, Pennsylvania, and Maryland--are equipped with state-of-the-
art communication systems and are in operation 24 hours a day, 7 days a 
week.
    FPS is divided into 11 regions Nation-wide and employs more than 
900 Federal Law Enforcement Officers supervising approximately 14,000 
contract Protective Security Officers (PSOs). FPS includes contract 
management, budget, and other administrative staff billets, providing 
law enforcement and security mission support.
    FPS currently employs a variety of measures to train PSOs in order 
to ensure our officers on the front lines have the tools they need to 
do their jobs. For example, in November 2010, FPS updated the 
orientation training provided by FPS to all newly hired PSOs. This 
training incorporates locality-specific information, scenario-based 
activities, and general procedures. During this training, FPS stresses 
the importance of obtaining building specific information in order to 
appropriately respond to occupant emergencies (for example, active 
shooter, Code Adam, Evacuation, Shelter-in-Place).
                               priorities
    I have set priorities for our Service that are challenging but 
realistic. I continue to closely monitor performance and hold service 
providers accountable to ensure that they are performing in full 
compliance with the requirements and standards set forth in our 
contracts. Additionally, I work closely with our customer agencies, 
their leaders, and the committees responsible for the safety at the 
local, metropolitan, State, and National levels.
    The transfer of FPS from ICE to NPPD, which was included in the 
fiscal year 2010 DHS Appropriations Act, is close to completion. 
Transitioning FPS to NPPD unified the security of the Government 
facilities sector into a single component, enabling DHS to provide a 
comprehensive infrastructure security program under the guidance 
provided by the Interagency Security Committee (ISC), as well as other 
oversight and regulatory bodies.
    FPS has received several Government Accountability Office (GAO) 
reports in the recent years with an upcoming report expected to be 
released later this month. Addressing GAO recommendations is a top 
priority that we monitor closely. I am happy to make our experts 
available to you and your staff to provide additional briefings as 
requested.
                            countermeasures
    In addition to its daily law-enforcement, investigative, and 
protection duties, FPS continues to measure the effectiveness of its 
countermeasures and related efforts. Through Operation Shield, we 
conduct unannounced inspections to evaluate the effectiveness of 
contract PSOs in detecting the presence of unauthorized persons or 
potentially disruptive or dangerous activities in or around Federal 
facilities. Operation Shield also serves as a visible, proactive, and 
random deterrent to disrupt the planning of terrorist activities. 
Working in conjunction with State, local, and Federal law enforcement 
organizations, FPS has expanded Operation Shield to include exercises 
that blanket a Federal facility with a significantly increased law 
enforcement presence. We have also increased testing of FPS response to 
suspicious packages and launched the Department's ``If You See 
Something, Say Something'' campaign at more than 9,000 Federal 
facilities. Since deploying this program in December 2010, our 
MegaCenters have received and coordinated responses to more than 2,400 
suspicious activity reports related to the ``If You See Something, Say 
Something'' campaign.
    Finally, immediately following the incident in FPS Region 5 at the 
Patrick V. McNamara Federal Building in Detroit, Michigan, FPS 
dispatched a mobile training team to the Detroit area to provide 8 
hours of weapons-detection training, including X-ray and magnetometer 
training, to all of the 85 PSO and supervisory PSO employees working at 
the McNamara Federal Building. Subsequent to the refresher training in 
Detroit, FPS headquarters conducted an audit of all Region 5 PSO 
training records maintained in vendors' files to assess compliance with 
the terms of the contract. This team discovered deficiencies in 
training and certifications records, which are now being addressed. 
Additionally, FPS took action against the contract company as a result 
of this incident, including a contract deduction.
                   risk assessment management program
    The development of the Risk Assessment Management Program (RAMP), 
which was designed to provide FPS personnel with a centralized source 
of information for Federal facilities they protect, has been under way 
for nearly 4 years. Yet, after careful consideration and review, FPS 
has determined that RAMP development--as it was being pursued--was not 
cost-effective and has not fulfilled its original goals. However FPS 
has a continuing need for elements of RAMP and its basic functionality.
    FPS has carefully assessed alternative programs to RAMP, including 
the DHS Science and Technology Directorate's recommended Integrated 
Rapid Visual Screen solution and Bridge and Tunnel Risk Assessment 
Program and the Infrastructure Survey Tool (IST), which is used by 
NPPD's Office of Infrastructure Protection (IP). A version of IST was 
selected as the interim RAMP solution, while FPS completes the 
development, testing, training, and implementation of RAMP 2nd 
Generation, also based on IST. The interim solution will enable FPS to 
continue processing credible Facility Security Assessments, which are a 
cornerstone of the protective services provided to the Federal 
community and FPS's other efforts, such as patrol and response, tenant 
awareness training, and countermeasure testing.
    There are many advantages to using the IST, as the next generation 
of RAMP is developed and implemented. The IST can be used as a security 
assessment tool when conducting market research of new facility leasing 
options with GSA as well as special security assessments, such as 
temporary leased facilities for FEMA disaster response operations. IST 
will enable field-based inspectors to complete and file their assigned 
assessments electronically as well as provide supervisors the ability 
to approve or comment on the assessments electronically. The IST 
approach will also allow FPS to leverage the development done to date 
on RAMP and ultimately gain efficiencies by improving RAMP capability 
based on the NPPD/IP gateway.
    The development of RAMP 2nd Generation will address specific 
recommendations the GAO has provided to FPS. For example, RAMP 2nd 
Generation will ultimately improve the PSO certification validation 
process. Effective July 1, 2011, FPS requires security vendors to send 
PSO certification data directly to their respective contracting officer 
in their regions for review and validation. FPS regions are responsible 
for maintaining accurate and up-to-date data for their region and 
submitting it to FPS headquarters on a monthly basis. With RAMP 2nd 
Generation, FPS headquarters will be able to analyze this data monthly 
and provide metrics to track trends and deficiencies as well as address 
and correct identified issues.
    In addition, FPS is revising the post inspection process to focus 
on contractor performance more closely. This new PSO inspection process 
will concentrate on assessing the PSOs' knowledge of the post orders, 
emergency preparedness, and response measures specific to the facility 
they protect (e.g., Active Shooter, Code Adam, Occupant Emergency 
Plans, Shelter-in-Place, response to suspicious packages and bomb 
threats, and so forth). Additionally, FPS administers an Agency 
Technical Representative program, which serves as a force multiplier 
allowing tenant agencies to assist FPS in providing important oversight 
of the PSO Program. With RAMP 2nd Generation, FPS will analyze the data 
collected from PSO inspections and use results to identify 
opportunities for remedial improvements in PSO training, procedures, 
post order revisions, and updates.
    FPS is also taking advantage of its transition to NPPD by 
leveraging mission-enhancing synergies; the plan to have the Critical 
Infrastructure Protection program engineering team conduct the work to 
re-engineer RAMP demonstrates FPS's intention to capitalize on these 
synergies at every opportunity. The partnership between FPS and IP has 
the potential for significant cost and time savings, as well, because 
RAMP re-engineering efforts will leverage the existing risk assessment 
tools already developed and deployed for IP.
    Additionally, the data collected via the interim IST will 
ultimately be available in the shared risk assessment database. NPPD 
plans for the completed facility assessments to become a part of the 
National critical infrastructure and key resources (CIKR) database, 
allowing NPPD the capability to view and share all CIKR assessments.
    NPPD leadership joins me in my commitment to actively address the 
challenges posed in the process of developing RAMP and remain engaged 
as solutions to these challenges are successfully implemented.
                               conclusion
    FPS remains committed to its mission to prevent, deter, mitigate, 
and defeat terrorist and criminal acts against anyone working in, 
visiting, or passing through the Federal facilities we protect. I 
commend the thousands of FPS employees who ensure the safety and 
security of our clients and customers every day throughout the country.
    Chairman Lungren, Ranking Member Clarke, and Members of the 
subcommittee, thank you for the opportunity to discuss FPS with you 
today, and I am pleased to answer any questions you might have.

    Mr. Lungren. Thank you very much.
    Now Mr. Goldstein.

      STATEMENT OF MARK L. GOLDSTEIN, DIRECTOR, PHYSICAL 
        INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Goldstein. Thank you, Mr. Chairman, and Members of the 
subcommittee. Thank you for the opportunity to testify today on 
issues related to the Federal Protective Service.
    As part of the Department of Homeland Security, FPS is 
responsible for protecting Federal employees and visitors and 
the property in approximately 9,000 Federal facilities owned or 
leased by the General Services Administration. FPS has a budget 
of approximately $1 billion and maintains approximately 1,200 
full-time employees and about 13,000 contract security guards 
that help accomplish the agency's facility protection mission.
    My testimony today is based on past reports and testimonies 
and discusses challenges FPS faces in carrying out its mission 
with regard to risk management, strategic human capital 
planning, oversight of its contract guard program, and ensuring 
that its fee-based funding structure is the appropriate 
mechanism for funding the agency.
    Mr. Chairman, our work has found the FPS continues to face 
challenges in carrying out its critical mission. Our findings 
in our recent reports include some of the following: First, 
that the absence of a risk management program hampers FPS's 
ability to protect Federal facilities. For many years GAO has 
advocated the importance of a risk-management approach.
    GAO reported in August 2010 that FPS does not use a 
comprehensive risk management approach that links threats and 
vulnerabilities to resource requirements. Instead, FPS uses a 
facility-by-facility approach, which assumes that facilities 
with the same security level have the same risk regardless of 
their location or other attributes. Without a risk management 
approach that identifies threats and vulnerabilities and the 
resources required to achieve FPS's security goals that GAO has 
recommended there is limited assurance that programs will be 
prioritized and resources will be allocated to address existing 
and potential security threats in an efficient and effective 
manner.
    Second, that FPS has not fully addressed several key human 
capital issues. FPS continues to operate without a strategic 
human capital plan to guide its current and future workforce 
planning efforts. We recommended this in 2009.
    Further, FPS is not able to determine what its optimal 
staffing level should be because the agency does not collect at 
headquarters data on the force's knowledge, skills, and 
abilities. FPS has yet to fully ensure that its recent move to 
an inspector-based workforce does not hinder its ability to 
protect Federal facilities.
    Third, that FPS faces long-standing challenges in managing 
the contract guard program. Weaknesses in FPS's contract guard 
program hamper its ability to protect Federal facilities, as 
many of you understand and have discussed this morning already.
    GAO reported in 2009 and 2010 that FPS cannot ensure that 
its contract guards have required training and certifications. 
FPS is in the process of addressing recommendations in this 
area and has revised its X-ray and magnetometer training for 
inspectors and guards.
    Fourth, FPS has not reviewed its fee design or determined 
an appropriate funding mechanism. FPS increased its basic 
security fee four times in 6 years to try to cover costs but 
has not reviewed its fees to develop an informed, deliberate 
design.
    Its current fee structure has consistently resulted in 
total collection amounts less than agency costs and continues 
to be an issue for Congressional interest and inquiry. The 
agency has not evaluated whether its fee-based structure or an 
alternative funding mechanism is most appropriate for funding 
the agency.
    FPS has made some progress in improving its ability to 
protect Federal facilities. For example, in response to 
recommendations by GAO FPS began to develop a system called 
RAMP, which could enhance its ability to comprehensively assess 
risk at Federal facilities and improve oversight of its 
contract guard program. That program is now under some review.
    Nevertheless, of the 28 recommendations we have made to FPS 
since 2007, none of them have been fully implemented. DHS and 
FPS initiatives--have initiatives in process to address 21 of 
the 28 recommendations.
    According to FPS officials, the slow pace in implementation 
results in part because of changes in the agency's leadership, 
organization, funding, staffing levels, and delays in 
developing several new management systems, including RAMP. On 
some of these issues, including the organizational transition 
to NPPD and RAMP, GAO has on-going work that we expect to issue 
shortly.
    Thank you, Mr. Chairman. This concludes my statement, and I 
would be pleased to answer any questions the committee has.
    [The statement of Mr. Goldstein follows:]
                Prepared Statement of Mark L. Goldstein
                             July 13, 2011
                             gao highlights
    Highlights of GAO-11-813T, a testimony before the Subcommittees of 
the House Committee on Homeland Security.
Why GAO Did This Study
    As part of the Department of Homeland Security (DHS), the Federal 
Protective Service (FPS) is responsible for protecting Federal 
employees and visitors in approximately 9,000 Federal facilities owned 
or leased by the General Services Administration (GSA). FPS has a 
budget of approximately $1 billion and maintains approximately 1,200 
full-time employees and about 13,000 contract security guards that help 
accomplish the agency's facility protection mission.
    This testimony is based on past reports and testimonies and 
discusses challenges FPS faces in carrying out its mission with regard 
to: (1) Risk management, (2) strategic human capital planning, (3) 
oversight of its contract guard program, and (4) ensuring that its fee-
based funding structure is the appropriate mechanism for funding the 
agency. GAO also addresses the extent to which FPS has made progress in 
responding to these challenges. To perform this work, GAO used its key 
facility protection practices as criteria, visited FPS regions and 
selected GSA buildings, reviewed training and certification data for 
FPS's contract guards, and interviewed officials from DHS, GSA, guard 
contractors, and guards.
What GAO Recommends
    DHS and FPS have generally concurred with GAO's past 
recommendations. DHS and FPS have initiatives in process, for example, 
to address risk management, strategic human capital planning, and 
oversight of its contract guard program.
 homeland security.--protecting federal facilities remains a challenge 
  for the department of homeland security's federal protective service
What GAO Found
    FPS continues to face challenges in carrying out its mission. 
Specifically:
  <bullet> The absence of a risk management program hampers FPS's 
        ability to protect Federal facilities.--For many years, GAO has 
        advocated the importance of a risk management approach. GAO 
        reported in August 2010 that FPS does not use a comprehensive 
        risk management approach that links threats and vulnerabilities 
        to resource requirements. Instead, FPS uses a facility-by-
        facility approach which assumes that facilities with the same 
        security level have the same risk regardless of their location. 
        Without a risk management approach that identifies threats and 
        vulnerabilities and the resources required to achieve FPS's 
        security goals, as GAO has recommended, there is limited 
        assurance that programs will be prioritized and resources will 
        be allocated to address existing and potential security threats 
        in an efficient and effective manner.
  <bullet> FPS has not fully addressed several key human capital 
        issues.--FPS continues to operate without a strategic human 
        capital plan to guide its current and future workforce planning 
        efforts, as GAO recommended in 2009. Further, FPS is not able 
        to determine what its optimal staffing levels should be because 
        FPS headquarters does not collect data on its workforce's 
        knowledge, skills, and abilities. FPS has yet to fully ensure 
        that its recent move to an inspector-based workforce does not 
        hinder its ability to protect Federal facilities.
  <bullet> FPS faces long-standing challenges in managing its contract 
        guard workforce.--Weaknesses in FPS's contract guard program 
        hamper its ability to protect Federal facilities. GAO reported 
        in 2009 and 2010 that FPS cannot ensure that its contract 
        guards have required training and certifications. FPS is in the 
        process of addressing GAO recommendations. For example, FPS 
        revised its X-ray and magnetometer training for its inspectors 
        and guards.
  <bullet> FPS has not reviewed its fee design or determined an 
        appropriate funding mechanism.--FPS increased its basic 
        security fee four times in 6 years to try to cover costs, but 
        has not reviewed its fees to develop an informed, deliberate 
        design. FPS's current fee structure has consistently resulted 
        in total collection amounts less than agency costs and 
        continues to be a topic of Congressional interest and inquiry. 
        FPS has yet to evaluate whether its fee-based structure or an 
        alternative funding mechanism is most appropriate for funding 
        the agency, as GAO recommended in 2008 and 2011.
    FPS has made some progress in improving its ability to protect 
Federal facilities. For example, in response to GAO recommendations, 
FPS is developing the Risk Assessment and Management Program (RAMP), 
which could enhance its ability to comprehensively assess risk at 
Federal facilities and improve oversight of its contract guard program. 
DHS and FPS have initiatives in process to address 21 of the 28 
recommendations GAO has made related to the challenges above, although 
none are yet fully implemented. According to FPS officials, this is in 
part because of changes in the agency's leadership, organization, 
funding, staffing levels, and delays in developing several new 
management systems, such as RAMP.
    Chairmen Lungren and Bilirakis, Ranking Members Clarke and 
Richardson, and Members of the subcommittees: We are pleased to be here 
to discuss the challenges the Federal Protective Service (FPS) faces in 
carrying out its mission to protect Federal facilities, particularly 
with regard to: (1) Risk management, (2) strategic human capital 
planning, (3) oversight of its contract guard program, and (4) ensuring 
that its fee-based funding structure is the appropriate mechanism for 
funding the agency. We will also discuss FPS's assessment of its 
performance and the extent to which FPS has made progress in responding 
to these challenges. Recent events have exposed weaknesses with FPS's 
ability to protect Federal facilities, including GAO's covert testing 
at Federal facilities in 2009, FPS's on-going penetration testing at 
Federal facilities, and FPS's contract security guards allowing 
components of an active bomb to remain in a Federal building in 
Detroit, Michigan, for 3 weeks in March 2011 before a bomb squad was 
called.
    As part of the Department of Homeland Security (DHS), FPS is 
responsible for protecting Federal employees and visitors in 
approximately 9,000 Federal facilities owned or leased by the General 
Services Administration (GSA).\1\ FPS has a budget of approximately $1 
billion and maintains approximately 1,200 full-time employees and about 
13,000 contract security guards (also known as protective service 
officers) that help accomplish the agency's facility protection 
mission. FPS's primary responsibilities include: (1) Conducting risk 
assessments of Federal facilities and recommending countermeasures 
aimed at preventing incidents at facilities; and (2) undertaking law 
enforcement activities, including responding to incidents at Federal 
facilities.
---------------------------------------------------------------------------
    \1\ In this testimony, we refer to property that is owned by the 
Federal Government and under the control and custody of GSA as GSA-
owned property.
---------------------------------------------------------------------------
    This testimony is based on our past reports and testimonies.\2\ 
Work conducted for these reports and testimonies included assessing 
FPS's facility protection efforts using our key security practices as a 
framework.\3\ We also visited selected FPS regions and selected GSA 
buildings to assess FPS activities first-hand. Additionally, we 
reviewed training and certification data for 663 randomly selected 
guards in 6 of FPS's 11 regions. Because of the sensitivity of some of 
the information in our prior work, we cannot specifically identify in 
this testimony the locations of the incidents discussed. For all of our 
work, we reviewed related laws and directives; interviewed officials 
and analyzed documents and data from DHS and GSA; and interviewed 
tenant agency representatives, contractors, and guards. These reviews 
took place between April 2007 and May 2011. Our work was conducted in 
accordance with generally accepted Government auditing standards. 
Additional information on scope and methodology is provided in the 
previously issued products.
---------------------------------------------------------------------------
    \2\ See related GAO products at the end of this statement.
    \3\ GAO, Homeland Security: Addressing Weaknesses with Facility 
Security Committees Would Enhance Protection of Federal Facilities, 
GAO-10-901 (Washington, DC: August 5, 2010).
---------------------------------------------------------------------------
   the absence of a risk management program hampers fps's ability to 
                       protect federal facilities
    For many years we have advocated the use of a risk management 
approach that entails managing risk through actions, including setting 
strategic goals and objectives, assessing risk, allocating resources 
based on risk, evaluating alternatives, selecting initiatives to 
undertake, and implementing and monitoring those initiatives. Risk 
assessment, an important element of a risk management approach, helps 
decision makers identify and evaluate potential risks so that 
countermeasures can be designed and implemented to prevent or mitigate 
the effects of the risks.
    FPS meets its mission to protect GSA's Federal facilities by 
assessing the risks that face those facilities and identifying the 
appropriate countermeasures to mitigate those risks. Despite the 
importance of this mission, FPS has not implemented an effective risk 
management program. In August 2010, we reported that FPS does not use a 
comprehensive risk management approach that links threats and 
vulnerabilities to resource requirements.\4\ Instead, FPS uses a 
facility-by-facility approach to risk management: We reported in 2010 
that FPS assumes that all facilities with the same security level have 
the same risk regardless of their location. For example, a level IV 
facility in a metropolitan area is generally treated the same as one in 
a rural area.\5\ This building-by-building approach prevents FPS from 
comprehensively identifying risk across the entire portfolio of GSA's 
facilities and allocating resources based on risk.\6\ Both our and 
DHS's risk management frameworks include processes for assessing 
comprehensive risk across assets in order to prioritize countermeasures 
based on the overall needs of the system.
---------------------------------------------------------------------------
    \4\ GAO-10-901.
    \5\ The level of security FPS provides at each of the 9,000 Federal 
facilities varies depending on the building's security level. Based on 
the Department of Justice's (DOJ) 1995 Vulnerability Assessment 
Guidelines, there are five types of security levels. A level I facility 
is typically a small storefront-type operation such as a military 
recruiting office which has 10 or fewer employees and a low volume of 
public contact. A level II facility has from 11 to 150 employees, a 
level III facility has from 151 to 450 Federal employees and moderate-
to-high volume of public contact, a level IV facility has over 450 
employees, a high volume of public contact, and includes high-risk law 
enforcement and intelligence agencies. FPS does not have responsibility 
for Level V facilities which include the White House and the Central 
Intelligence Agency. The Interagency Security Committee has recently 
promulgated new security level standards that will supersede the 1995 
DOJ standards.
    \6\ GAO, Homeland Security: The Federal Protective Service Faces 
Several Challenges That Hamper Its Ability to Protect Federal 
Facilities, GAO-08-683 (Washington, DC: June 11, 2008). See also GAO-
10-901.
---------------------------------------------------------------------------
    In response to our recommendations in this area, FPS began 
developing a new system, the Risk Assessment and Management Program 
(RAMP). According to FPS, RAMP will support all components of the risk 
assessment process, including gathering and reviewing building 
information; conducting and recording interviews with GSA and tenant 
agencies; assessing threats, vulnerabilities, and consequences to 
develop a detailed risk profile; recommending appropriate 
countermeasures; and producing facility security assessment (FSA) 
reports. FPS also plans to use RAMP to track and analyze workforce 
data, contract guard program data, and other performance data, such as 
the types and definitions of incidents and incident response times. We 
are finalizing our on-going review of FPS's efforts to develop and 
implement RAMP as well as FPS's transition to DHS's National Protection 
and Programs Directorate (NPPD) and expect to report on these issues 
soon.
      fps has not fully addressed several key human capital issues
    Over the last 3 years we have reported on the challenges FPS has 
faced in the human capital area since moving to DHS from GSA in 2003. 
As mandated by Congress, in 2009 FPS increased the size of its 
workforce to 1,200 full-time employees.\7\ However, FPS continues to 
operate without a strategic human capital plan. We recommended in 2009 
that FPS develop a human capital plan to guide its current and future 
workforce planning efforts.\8\ We have identified human capital 
management as a high-risk issue throughout the Federal Government, 
including within DHS. A human capital plan is important to both align 
FPS's human capital program with current and emerging mission and 
programmatic goals, and develop effective processes for training, 
retention, and staff development. In 2009, we reported that the absence 
of such a plan has contributed to inconsistent human capital activities 
among FPS regions and headquarters, as several regions told us they 
have implemented their own processes for performance feedback, 
training, and mentoring. In addition, we found that FPS's workforce 
planning is limited because FPS headquarters does not collect data on 
its workforce's knowledge, skills, and abilities. Without such 
information, FPS is not able to determine what its optimal staffing 
levels should be or identify gaps in its workforce needs and determine 
how to modify its workforce planning strategies to fill these gaps. FPS 
concurred with our recommendation and drafted a workforce analysis plan 
in June 2010. According to FPS, the plan must be reviewed by the Office 
of Management and Budget (OMB) before it is subject to approval by the 
Secretary of Homeland Security.
---------------------------------------------------------------------------
    \7\ Department of Homeland Security Appropriations Act, 2009, Pub. 
L. No. 110-329, Division D, 122 Stat. 3574, 3659-3660 (2008). This 
requirement for FPS to maintain a minimum number of full-time 
equivalent positions has been included in subsequent appropriations 
acts. See Department of Homeland Security Appropriations Act, 2010, 
Pub. L. No. 111-83, 123 Stat. 2142, 2156-2157 (2009), and Department of 
Defense and Full-Year Continuing Appropriations Act, 2011, Pub. L. No. 
112-10, 125 Stat. 38, 142-143 (2011).
    \8\ GAO, Homeland Security: Federal Protective Service Should 
Improve Human Capital Planning and Better Communicate with Tenants, 
GAO-09-749 (Washington, DC: July 30, 2009).
---------------------------------------------------------------------------
    FPS also has yet to fully ensure that its recent move to an 
inspector-based workforce does not hinder its ability to protect 
Federal facilities. In 2007, FPS essentially eliminated its police 
officer position and moved to an all inspector-based workforce. FPS 
also decided to place more emphasis on physical security activities, 
such as completing FSAs, and less emphasis on law enforcement 
activities, such as proactive patrol. We reported in 2008 that these 
changes may have contributed to diminished security and increases in 
inspectors' workload.\9\ Specifically, we found that when FPS is not 
providing proactive patrol at some Federal facilities, there is an 
increased potential for illegal entry and other criminal activity. 
Moreover, under its inspector-based workforce approach, FPS is relying 
more on local police departments to handle crime and protection issues 
at Federal facilities; however, we previously reported that at 
approximately 400 Federal facilities across the United States, local 
police may not have the authority to respond to incidents inside those 
facilities.\10\
---------------------------------------------------------------------------
    \9\ GAO-08-683.
    \10\ At approximately 400 Federal facilities Nation-wide, the 
Federal Government has exclusive jurisdiction of its facilities, 
whereby the Federal Government has all of the legislative authority 
within the land area in question and the local police have no residual 
police power.
---------------------------------------------------------------------------
    We recommended in 2008 that FPS clarify roles and responsibilities 
of local law enforcement agencies in responding to incidents at GSA 
facilities.\11\ While FPS agreed with this recommendation, FPS has 
decided not to pursue agreements with local law enforcement officials, 
in part because of local law enforcement officials' reluctance to sign 
such agreements. In addition, FPS believes that the agreements are not 
necessary because 96 percent of the properties in its inventory are 
listed as concurrent jurisdiction facilities where both Federal and 
State governments have jurisdiction over the property. Nevertheless, we 
continue to believe that these agreements would, among other things, 
clarify roles and responsibilities of local law enforcement agencies 
when responding to crime or other incidents. We are currently reviewing 
to what extent FPS is coordinating with State and local police 
departments to ensure adequate protection of Federal facilities and 
will issue a report next year.
---------------------------------------------------------------------------
    \11\ GAO-08-683.
---------------------------------------------------------------------------
   fps faces longstanding challenges in managing its contract guard 
                               workforce
    FPS's contract guard program is the most visible component of the 
agency's operations and the agency relies on its guards to be its 
``eyes and ears'' while performing their duties. Guards are responsible 
for controlling access to Federal facilities by checking the 
identification of Government employees and the public who enter Federal 
facilities, and operating security equipment to screen for prohibited 
items. Since 2009, we have identified weaknesses in FPS's contract 
guard program which hamper its ability to protect Federal facilities. 
For example, we reported in 2009 and in 2010 that FPS does not have a 
reliable system to ensure that its 13,000 guards have the training and 
certifications required to stand post at Federal facilities or comply 
with post orders once they are deployed.\12\
---------------------------------------------------------------------------
    \12\ GAO, Homeland Security: Preliminary Results Show Federal 
Protective Service's Ability to Protect Federal Facilities Is Hampered 
By Weaknesses in Its Contract Security Guard Program, GAO-09-859T 
(Washington, DC: July 8, 2009). See also GAO, Homeland Security: 
Federal Protective Service's Contract Guard Program Requires More 
Oversight and Reassessment of Use of Contract Guards, GAO-10-341 
(Washington, DC: April 13, 2010).
---------------------------------------------------------------------------
    In 2009, we also identified substantial security vulnerabilities 
related to FPS's guard program.\13\ In April and May 2009, GAO 
investigators conducted covert tests and were able to successfully pass 
components of an improvised explosive device (IED) concealed on their 
persons through security checkpoints monitored by FPS guards at 10 
Level IV facilities in 4 major metropolitan areas. In addition, FPS's 
penetration testing--similar to our covert testing--shows that guards 
continue to have problems with detecting prohibited items.\14\ For 
example, in March 2011, FPS contract guards allowed components for an 
active bomb to remain in a Level IV Federal building in Detroit, 
Michigan for 3 weeks before a bomb squad was called to remove them.
---------------------------------------------------------------------------
    \13\ GAO-09-859T.
    \14\ FPS employs Operation Shield to systematically assess the 
effectiveness of FPS countermeasures, including Protective Service 
Officers, at Federal facilities.
---------------------------------------------------------------------------
    We also found in 2010 that although some guard contractors did not 
comply with the terms of their contracts, FPS did not take any 
enforcement action against them.\15\ According to FPS guard contracts, 
a contractor has not complied with the terms of the contract if, for 
example, the contractor has a guard working without valid 
certifications or background suitability investigations, or falsifies a 
guard's training records. If FPS determines that a contractor does not 
comply with these contract requirements, it can--among other things--
assess a financial deduction for nonperformed work, elect not to 
exercise a contract option, or terminate the contract for default or 
cause.
---------------------------------------------------------------------------
    \15\ GAO-10-341.
---------------------------------------------------------------------------
    We reviewed the official contract files for the 7 contractors who, 
as we testified in July 2009, had guards performing on contracts with 
expired certification and training records to determine what action, if 
any, FPS had taken against these contractors for contract 
noncompliance.\16\ According to the documentation in the contract 
files, FPS did not take any enforcement action against the contractors 
for not complying with the terms of the contract. Instead, FPS 
exercised the option to extend the contracts for these 7 contractors. 
Additionally, although FPS requires an annual performance evaluation of 
each guard contractor and at the conclusion of contracts exceeding 
$100,000, FPS did not always evaluate the performance of its 
contractors as required, and some evaluations were incomplete and not 
consistent with contractors' performance.
---------------------------------------------------------------------------
    \16\ GAO-09-859T.
---------------------------------------------------------------------------
    In response to our recommendations, FPS has taken several steps to 
improve the oversight of its contract guard program. Since July 2009, 
FPS has increased its penetration tests in some regions and the number 
of guard inspections it conducts at Federal facilities in some 
metropolitan areas. Additionally, FPS began the process of providing 
additional X-ray and magnetometer training for its workforce. Under the 
new requirement, inspectors must receive 30 hours of X-ray and 
magnetometer training and guards are required to take 16 hours. 
Previously, guards were required to receive 8 hours of training on X-
ray and magnetometer machines. Finally, FPS expects to use RAMP, once 
it is developed, to determine whether its 13,000 guards have met its 
training and certification requirements and to conduct guard 
inspections. As stated earlier, we are finalizing our review of FPS's 
RAMP.
   fps has not reviewed its fee design or determined an appropriate 
                           funding mechanism
    We reported in May 2011 that FPS increased its basic security fee 4 
times in 6 years to try to cover costs (an increase of over 100 
percent).\17\ However, FPS has not reviewed its fees to develop an 
informed, deliberate fee design. We found that timely, substantive fee 
reviews are especially critical for fee-funded agencies to ensure that 
fee collections and operating costs remain aligned. FPS has broad 
authority to design its security fees, but the current fee structure 
has consistently resulted in total collection amounts less than agency 
costs, is not well understood or accepted by tenant agencies, and 
continues to be a topic of Congressional interest and inquiry.\18\
---------------------------------------------------------------------------
    \17\ GAO-11-492.
    \18\ Pub. L. No. 109-295, title II, 120 Stat. 1355, 1361 (Oct. 4, 
2006).
---------------------------------------------------------------------------
    In 2008, we recommended that FPS evaluate whether its use of a fee-
based system or an alternative funding mechanism is the most 
appropriate manner to fund the agency. Although FPS agreed with this 
recommendation it has not begun such an analysis. Based on our updated 
work in 2011, we recommended that such an analysis include the 
examination of both alternative fee structures and a combination of 
fees and appropriations as well as the options and trade-offs discussed 
in our 2011 report.\19\ FPS agreed with this recommendation.
---------------------------------------------------------------------------
    \19\ GAO-11-492.
---------------------------------------------------------------------------
           fps faces limitations in assessing its performance
    We have reported that FPS is limited in its ability to assess the 
effectiveness of its efforts to protect Federal facilities.\20\ To 
determine how well it is accomplishing its mission to protect Federal 
facilities, FPS has identified some output measures. These measures 
include determining whether security countermeasures have been deployed 
and are fully operational, the amount of time it takes to respond to an 
incident, and the percentage of FSAs completed on time. As we reported 
in 2010, while output measures are helpful in assessing performance, 
outcome measures can provide FPS with broader information on program 
results, such as the extent to which its decision to move to an 
inspector-based workforce will enhance security at Federal 
facilities.\21\ Outcome measures could also help identify the security 
gaps that remain at Federal facilities and determine what action may be 
needed to address them.
---------------------------------------------------------------------------
    \20\ GAO, Homeland Security: Greater Attention to Key Practices 
Would Improve the Federal Protective Service's Approach to Facility 
Protection, GAO-10-142 (Washington, DC: October 23, 2009).
    \21\ GAO-10-142.
---------------------------------------------------------------------------
    In addition, we reported in 2010 that FPS does not have a reliable 
data management system that will allow it to accurately track these 
measures or other important measures such as the number of crimes and 
other incidents occurring at GSA facilities.\22\ Without such a system, 
it is difficult for FPS to evaluate and improve the effectiveness of 
its efforts to protect Federal employees and facilities, allocate its 
limited resources, or make informed risk management decisions. For 
example, weaknesses in one of FPS's countermeasure tracking systems 
make it difficult to accurately track the implementation status of 
recommended countermeasures such as security cameras and X-ray 
machines. Without this ability, FPS has difficulty determining whether 
it has mitigated the risk of Federal facilities to crime or a terrorist 
attack. FPS concurred with our recommendations and states that its 
efforts to address them will be completed in 2012 when its automated 
information systems are fully implemented.
---------------------------------------------------------------------------
    \22\ GAO-10-142.
---------------------------------------------------------------------------
 fps has begun some initiatives, but most gao recommendations have not 
                         been fully implemented
    FPS has begun several initiatives that, once fully implemented, 
should enhance its ability to protect the more than 1 million Federal 
employees and members of the public who visit Federal facilities each 
year. Since 2008, we have made 28 recommendations to help FPS to 
address its challenges with risk management, strategic human capital 
planning, oversight of its contract guard workforce, and its fee-based 
funding structure. DHS and FPS have generally agreed with these 
recommendations. As of July 2011, as shown in Table 1, FPS was in the 
process of addressing 21 of them, although none were fully implemented. 
Of the remaining 7, 5 were recommendations from our May 2011 report, 
and we would not necessarily expect them to be fully implemented yet. 
According to FPS officials, the agency has faced difficulty in 
implementing many of our recommendations because of changes in its 
leadership, organization, funding, and staffing levels. In addition, 
FPS officials stated that its progress in implementing our 
recommendations has been affected by delays in developing several new 
management systems, such as RAMP.

----------------------------------------------------------------------------------------------------------------
              GAO Report                                Recommendations                           Status
----------------------------------------------------------------------------------------------------------------
Budget Issues: Better Fee Design       Conduct regular reviews of FPS's security fees    Not implemented.
 Would Improve Federal Protective       and use this information to inform its fee       Not implemented.
 Service's and Federal Agencies'        setting.                                         Not implemented.
 Planning and Budgeting for Security,  Include system-wide capital investments when      Not implemented.
 GAO-11-492, May 2011.                  estimating costs and include them when setting   Not implemented.
                                        basic security fee rates.                        In process.
                                       Make information on the estimated costs of key
                                        activities as well as the basis for these cost
                                        estimates readily available to affected parties
                                        to improve the transparency and credibility--
                                        and hence the acceptance by stakeholders--of
                                        the process for setting and using the fees.
                                       Assess and report to Congress on: (1) The
                                        current and alternative fee structures, to
                                        include the options and trade-offs discussed in
                                        this report, and if appropriate, and (2)
                                        options to fund FPS through a combination of
                                        fees and direct appropriations, to include the
                                        options and trade-offs discussed in this report.
                                       Evaluate and report to Congress on options to
                                        mitigate challenges agencies face in budgeting
                                        for FPS security costs, such as: (1) An
                                        alternative account structure for FPS to
                                        increase flexibility, while retaining or
                                        improving accountability and transparency or
                                        (2) an approved process for estimating fee
                                        rates.
                                       Collect and maintain an accurate list of points
                                        of contact of customer agency officials
                                        responsible for budget and billing activities
                                        as well as facility designated points of
                                        contact as we previously recommended in 2010.
Homeland Security: Addressing          Develop and implement procedures that, among      In process.
 Weaknesses with Facility Security      other things, outline the facility security
 Committees Would Enhance Protection    committees' organization structure, operations,
 of Federal Facilities, GAO-10-901,     decision-making authority, and accountability.
 August 2010.
Homeland Security: Federal Protective  Identify other approaches and options that would  In process.
 Service's Contract Guard Program       be most beneficial and financially feasible for  In process.
 Requires More Oversight and            protecting Federal facilities.                   In process.
 Reassessment of Use of Contract       Rigorously and consistently monitor guard         In process.
 Guards, GAO-10-341, April 2010.        contractors' and guards' performance and step    In process.
                                        up enforcement against contractors that are not  In process.
                                        complying with the terms of the contract.        In process.
                                       Complete all contract performance evaluations in  In process.
                                        accordance with FPS and Federal Acquisition
                                        Regulations requirements.
                                       Issue a standardized record-keeping format to
                                        ensure that contract files have required
                                        documentation.
                                       Develop a mechanism to routinely monitor guards
                                        at Federal facilities outside metropolitan
                                        areas.
                                       Provide building-specific and scenario-based
                                        training and guidance to its contract guards.
                                       Develop and implement a management tool for
                                        ensuring that reliable, comprehensive data on
                                        the contract guard program are available on a
                                        real-time basis.
                                       Verify the accuracy of all guard certification
                                        and training data before entering them into
                                        RAMP, and periodically test the accuracy and
                                        reliability of RAMP data to ensure that FPS
                                        management has the information needed to
                                        effectively oversee its guard program.
Homeland Security: Greater Attention   Provide the Secretary with regular updates, on a  In process.
 to Key Practices Would Improve the     mutually agreed-to schedule, on the status of    In process.
 Federal Protective Service's           RAMP and the National Countermeasures Program,   In process.
 Approach to Facility Protection, GAO-  including the implementation status of
 10-142, October 2009.                  deliverables, clear timelines for completion of
                                        tasks and milestones, and plans for addressing
                                        any implementation obstacles.
                                       In conjunction with the National Countermeasures
                                        Program, to develop a methodology and guidance
                                        for assessing and comparing the cost-
                                        effectiveness of technology alternatives.
                                       Reach consensus with GSA on what information
                                        contained in the building security assessment
                                        is needed for GSA to fulfill its
                                        responsibilities related to the protection of
                                        Federal buildings and occupants, and
                                        accordingly, establish internal controls to
                                        ensure that shared information is adequately
                                        safeguarded; guidance for employees to use in
                                        deciding what information to protect with
                                        sensitive but unclassified designations;
                                        provisions for training on making designations,
                                        controlling, and sharing such information with
                                        GSA and other entities; and a review process to
                                        evaluate how well this information sharing
                                        process is working, with results reported to
                                        the Secretary regularly on a mutually agreed-to
                                        schedule.
Homeland Security: Federal Protective  Improve how FPS headquarters collects data on     In process.
 Service Should Improve Human Capital   its workforce's knowledge, skills, and           In process.
 Planning and Better Communicate with   abilities to help it better manage and           In process.
 Tenants, GAO-09-749, July 2009.        understand current and future workforce needs.   In process.
                                       Use these data in the development and
                                        implementation of a long-term strategic human
                                        capital plan that addresses key principles for
                                        effective strategic workforce planning,
                                        including establishing programs, policies, and
                                        practices that will enable the agency to
                                        recruit, develop, and retain a qualified
                                        workforce.
                                       Collect and maintain an accurate and
                                        comprehensive list of all facility-designated
                                        points of contact, as well as a system for
                                        regularly updating this list.
                                       Develop and implement a program for education
                                        and outreach to all customers to ensure they
                                        are aware of the current roles,
                                        responsibilities, and services provided by FPS.
Homeland Security: The Federal         Develop and implement a strategic approach to     In process.
 Protective Service Faces Several       manage its staffing resources including          In process.
 Challenges That Hamper Its Ability     determining the optimum number of employees      Not implemented.
 to Protect Federal Facilities, GAO-    needed to accomplish its facility protection     Not implemented.
 08-683, July 2008.                     mission and allocate these resources based on    In process.
                                        risk management principles.                      In process.
                                       Clarify roles and responsibilities of local law
                                        enforcement agencies in regard to responding to
                                        incidents at GSA facilities.
                                       Improve FPS's use of the fee-based system by
                                        developing a method to accurately account for
                                        the cost of providing security services to
                                        tenant agencies and ensuring that its fee
                                        structure takes into consideration the varying
                                        levels of risk and service provided at GSA
                                        facilities.
                                       Evaluate whether FPS's current use of a fee-
                                        based system or an alternative funding
                                        mechanism is the most appropriate manner to
                                        fund the agency.
                                       Develop and implement specific guidelines and
                                        standards for measuring its performance,
                                        including outcome measures to assess its
                                        performance and improve the accountability of
                                        FPS.
                                       Improve how FPS categorizes, collects, and
                                        analyzes data to help it better manage and
                                        understand the results of its efforts to
                                        protect GSA facilities.
----------------------------------------------------------------------------------------------------------------
Source.--GAO.
Note.--We reviewed information from FPS regarding our recommendations and, based on this information,
  categorized our recommendations accordingly. ``In process'' indicates that FPS has actions on-going but has
  not completed them. ``Not implemented'' indicates that FPS has not yet taken any action to address our
  recommendations.

    Chairmen Lungren and Bilirakis, Ranking Members Clarke and 
Richardson, and Members of the subcommittees, this completes my 
prepared statement. I would be happy to respond to any questions you or 
other Members of the subcommittees may have at this time.

    Mr. Lungren. Thank you very much, Mr. Goldstein. Thank you 
for your testimony.
    We will now go to a round of questioning, and I will yield 
myself 5 minutes to begin the questioning.
    General Patterson, you have heard the criticisms of FPS. 
You have heard some of them repeated here.
    You come from a distinguished background serving in one of 
the great institutions of America, the United States Air Force. 
You realize what leadership is and discipline is within an 
organization.
    There have been continuing problems with FPS, some before 
you were there, some continuing since you have been there. How 
do we have confidence that you are making the changes that were 
indicated by previous GAO reports in light of some of the 
shortcomings that--incidents that we have already observed and 
have been articulated here?
    Mr. Patterson. Yes, sir. To answer that, first of all, I 
would like to say I clearly understand how important it is to 
protect those 1.4 million folks that transit and work in our 
facilities every day. We are responsible for protecting 9,000 
facilities and 1.4 million folks and I know and understand how 
important that is.
    When I took over as the director of the Federal Protective 
Service one of the first things I did was to establish a code 
of conduct. That code of conduct was to establish, to ensure 
that we abided by and work towards a set of personal and 
professional goals of conduct. I thought that was very 
important so that every day in every instance when our people 
work with and interface with our--the folks that we protect 
that we know how to treat them and we treat them in a fair and 
equitable way and that we are--that we understand the 
challenges that they face in wanted to be safe and secure in 
those facilities.
    I also set priorities--very tough priorities, but 
achievable priorities in training. We didn't have a director or 
assistant director of training. One of the first things I did 
was go to the under secretary and ask him could I hire a senior 
to direct our training effort, and he agreed and said yes. That 
announcement is on the street today to hire a director of 
training for the Federal Protective Service.
    I also understand and know that we have challenges with 
RAMP. It is no question about that.
    I identified those challenges, I brought those--some of the 
problems we were having, I brought those to the attention of 
GAO, that we were having problems. They already knew some of 
them. But I told them that we were moving in a different 
direction and that I needed to be clear, up front, and 
transparent about where we were going.
    We need to develop--we are also developing a common 
communications plan so that people understand who we are and 
what we do and how we are to interface and work with the people 
we are charged to protect, and clearly create a close 
relationship with our customers.
    Mr. Chairman, it is my intent--I lead from the front--to 
ensure transparency, to--so that not only does the Secretary 
understand what our challenges are but these Congressional 
committees also understand what our challenges are, and work 
with you to try to put into place those changes and implement 
whatever changes we need to do to help us move forward.
    Mr. Lungren. General, let me ask you this: We have had 
prior hearings and somehow it seemed to get into the question 
about whether we should Federalize the guards or not Federalize 
the guards, and it just seemed to me the problem was intrinsic 
to the entire FPS. That is, that it doesn't matter whether your 
guards are Federal employees or non-Federal employees if they 
are not trained properly and they are not supervised properly, 
and I believe you have something like 1,400 or so on the 
supervisory level. So to me it is not a question of a problem 
with respect to the identity of the guards; it is a problem 
with respect to the training and the continued supervision of 
those employees.
    So you have outlined the kinds of things you want done, but 
again, going back to your military background, you expect 
things to be done on a timeline. You expect change to be made. 
You expect to see some actual on-the-ground differences.
    When should we expect to see that?
    Mr. Patterson. Mr. Chairman, I would expect to see those--
as we begin to move forward, as we begin to make changes, as I 
begin to implement changes we will see that. Currently I have 
done several studies looking at what training currently is 
provided to our PSO force. Okay, right now the majority of the 
training is provided by the contractor, okay?
    I need to understand whether that should be a mix of 
training. Should we have more of our training provided by our 
Federal forces, let's say, for instance, at FLETC, or should 
we--or should we continue with the line of training that we 
have now? So that is something we are looking at.
    Mr. Lungren. My time is expired.
    The gentlelady from New York is recognized for 5 minutes.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    Mr. Patterson, I kind of appreciate what seems to be a 
dilemma for you. How long have you been director of the Federal 
Protective Services now?
    Mr. Patterson. About 9 months, ma'am.
    Ms. Clarke. Wow. Well, you have inherited a real big 
challenge here. But I think the GAO has pointed to some really 
critical areas and I just wanted to ask your responses to at 
least a couple of the points raised by the GAO report.
    The absence of a risk management approach: Given the 
limitations of your resources and given the bifurcated way in 
which our buildings are protected both by your officers and 
contract officers, do you think that a risk management approach 
is--that you are capable of establishing a risk management 
approach?
    Mr. Patterson. Yes, ma'am, I do. I believe----
    Ms. Clarke. Go on, sir. You can----
    Mr. Patterson. I think that is the way that we should 
proceed is a risk management approach. I think that all threats 
aren't the same, all vulnerabilities aren't the same. So I 
think we need to look at each facility differently and assess 
the vulnerabilities of each facility independent of the other.
    Ms. Clarke. Are there any particular impediments in the way 
of moving in that direction fairly rapidly?
    Mr. Patterson. I would have to assess--I think we are 
trying to do that now, ma'am, under the RAMP process. I think 
that is going to allow us to begin to move in that direction. 
To be honest, we have had some challenges in developing RAMP, 
so that has slowed this process some.
    But I am confident as we move forward that we will be able 
to accept this challenge and move forward very quickly in 
developing the RAMP process.
    Ms. Clarke. Do you have a sort of deadline by which you 
expect to see RAMP accomplished?
    Mr. Patterson. I have a mental deadline, ma'am. But right 
now we are in the process of evaluating an alternative process 
through an interagency agreement with a different contractor to 
move us forward. That particular process is currently still 
under review.
    We don't know that we are going to be able to move in that 
direction. That is the direction that I hope--I sincerely hope 
that we are able to move in that direction, but until my 
contracting officers--my contracting office department and our 
legal staff tell me that it is okay to move in that direction I 
am still kind of on hold with that.
    Ms. Clarke. So what is the deadline for the ending of the 
evaluation and assessment?
    Mr. Patterson. I don't control it, but I am hoping within 
the next few weeks.
    Ms. Clarke. Okay.
    Let me ask about the strategic planning for human 
resources. Is that also contained in this evaluation and 
assessment of RAMP or is this something separate that you 
should be focused on?
    Mr. Patterson. Yes, ma'am. I am focused on--I guess, are 
you talking about how are we going to obtain more people or----
    Ms. Clarke. Well, the strategic use. I mean, you are 
limited, right?
    Mr. Patterson. Yes, we are.
    Ms. Clarke. Okay. So within those limitations we are 
expecting that----
    Mr. Patterson. Yes, okay.
    Ms. Clarke. Okay?
    Mr. Patterson. Yes. RAMP will allow us--what RAMP allows us 
to do is to hopefully leverage and utilize our--the existing 
staff that we have more efficiently and more effectively, okay? 
Quite honestly, we are using some antiquated methods of how we 
collect data and how we do our jobs, and RAMP is going to help 
us move forward. I have every confidence once we get RAMP 
moving that we will be able to do that.
    Ms. Clarke. What about your contract guard management? 
Would all of that ultimately hinge on a successful 
implementation of the RAMP or is this something that you have 
separately looked at particularly given the breaches or the 
breach--the major breach--that has come to the attention of our 
Nation?
    Mr. Patterson. Right. RAMP is only a part of that. Clearly 
to ensure that our inspectors and our law enforcement folks are 
providing the necessary direction as--when they interface with 
our contract--with our PSOs we are ensuring that we are 
providing them the adequate direction and I am evaluating that 
as well.
    Ms. Clarke. In just those three areas there seems to be a 
nexus component, which is RAMP. What happens if RAMP does not 
work?
    Mr. Patterson. RAMP will work, ma'am.
    Ms. Clarke. Mr. Chairman, I yield back the balance of my 
time.
    Mr. Lungren. Thank you very much.
    Mr. Meehan, gentleman from Pennsylvania, is recognized for 
5 minutes.
    Mr. Meehan. Thank you, Mr. Chairman.
    Thank you, Mr. Patterson and Mr. Goldstein, for taking the 
time to be with us today. I speak as one who enjoyed the 
protection of the Federal Protection Service for almost 7 years 
as a United States attorney and operated in a building in which 
we were handled by contract guards overseen by the FPS, and 
have to say that day in and day out established sort of a 
familiarity with the group, found them to be very professional 
in what they were doing.
    But I can imagine that there are a number of challenges, 
and one, of course, is the changing nature of the threats that 
we have and training.
    Now, Mr. Patterson, I also dealt with police forces all 
across my State and we are different municipalities but we 
found a common scheme of training that was required, and this 
would be established each year. Isn't there a grid, so to 
speak, for certain categories of training in specific areas 
that would year-to-year be evaluated and changed so that we 
would keep pace with technology and be able to know that any 
contract guard has been trained to that level?
    Mr. Patterson. Yes, sir. The challenge that we have 
currently is not the technical limitations or the technical 
level of the training, it is currently our ability to ensure 
that the training has been delivered in an acceptable manner, 
and that is our challenge. Most of the training is being 
delivered by the contractor, so we have approximately 130 
contractors across the Federal Protective Service, and as such 
we can't ensure that a certain standard or level is being 
delivered at a particular level over each one of those 
contracts.
    Mr. Meehan. Well, is it impossible to work with 
organizations that we know are capable of delivering a 
standard? For instance, the State police force that each year 
trains a number of people. Is it possible to go back and look 
at creating professional standards that we know that can be 
upheld so that you are not relying on, you know, on a 
contractor that says, yes, I did it?
    Mr. Patterson. Yes, sure. I am sure that there are any 
number of probable solutions that we may undertake. That is why 
I have hired--in the process of hiring a professional to try to 
give me a sense of what the best direction is. How do we need 
to get our arms around this so that I can give you confidence 
and the American people confidence that we are doing our job?
    Mr. Meehan. Yes, I would hope--I mean, it doesn't seem like 
it--I know it sounds simplistic, but there is basic training 
and it is just really assuring that we have that done.
    Another aspect I am interested in is your concept of the 
challenge in which--there are just so many different Federal 
facilities. But how do you prioritize? Is it first looking at 
where there are people being the highest priority, or certain 
kinds of buildings that receive priority over others in terms 
of your risk assessment?
    Mr. Patterson. Right. Our priorities are set by the 
occupants and the nature of the business that they do in those 
buildings and the location of those facilities, and we have a 
set level of priority four down to one, and depending upon the 
level of what we believe to be the threat to that facility is 
how we dedicate resources to that facility.
    Mr. Meehan. What kind of connection do you have to some of 
the other existing networks that we have in place with Homeland 
Security on the constant assessment of threat analysis so that 
we might begin to appreciate that because of a particular 
case----
    Mr. Patterson. Right.
    Mr. Meehan [continuing]. A particular courthouse might be a 
place of, you know, higher significance for a period of time?
    Mr. Patterson. Right. Every morning I receive a briefing 
from the folks within the Department of Homeland Security that 
we receive from intelligence and analysis. They are the folks 
who are responsible for providing the Secretary a comprehensive 
understanding of what the key threats are around the Nation and 
to Federal facilities, or to commercial and other facilities, 
for that matter.
    So I feel that I am fairly well-informed about what the 
threats are. Our challenge is how quickly we can get that 
information down to those 9,000 facilities, and we are working 
on a process to make that happen fairly quickly now.
    Mr. Meehan. Thank you for your work.
    Mr. Goldstein, you have a lot of oversight capacity. You 
spend a lot of time feeding. What do you think is the first and 
highest priority in return--in regard to what we ought to be 
doing to assure security at these facilities?
    Mr. Goldstein. I would agree with General Patterson, that 
the most important thing to do is to develop a risk management 
strategy that the agency can use to evaluate across this entire 
portfolio so that it can begin to choose those that are at 
greatest risk to protect better.
    Mr. Meehan. We have that in place already or that is what 
is being developed?
    Mr. Goldstein. No, sir, we do not. You need RAMP to even 
begin to create that process, sir.
    Mr. Meehan. Thank you, Mr. Chairman. My time is expired.
    Mr. Lungren. I thank the gentleman.
    The distinguished Ranking Member of the full committee, Mr. 
Thompson, is recognized for 5 minutes.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    General, FPS in one capacity or another is about 50 years 
old now?
    Mr. Patterson. Forty years old, sir.
    Mr. Thompson. Forty years old. Okay.
    Well, and I find it really competent, on one hand, that you 
finally decided that you need a code of conduct for your 
employees. I think that is commendable on your part because in 
any organization I think you have to have it and I want to 
compliment you for doing that.
    But also, I also want to talk briefly about the RAMP 
contract, a $41 million contract that I am told everybody 
agreed that it, at this point, is a failure. Are we correct or 
is it--where are we?
    Mr. Patterson. Yes, sir, if I might, RAMP does not work as 
it was intended to. I will tell you that.
    Mr. Thompson. Thank you.
    Mr. Patterson. Yes.
    Mr. Thompson. Now, and my staff tells me that we have now 
given another contract to the same company that we spent $41 
million with to do something else with RAMP.
    Mr. Patterson. No, sir. What has happened is that while we 
we are in the process of moving forward and working with 
another contractor to do that, because we have spent--developed 
a lot of backend areas for--that move RAMP, that make RAMP 
work, we have to maintain that. That is called kind of the 
operations and maintenance part of RAMP that we have to 
maintain.
    If we don't maintain that--if we are to take what we have, 
what we spent our $35.6 million on today, if we are to move it 
to another contractor we have to maintain all the data, all the 
information to do that. So that is costing us some money but we 
have ceased--we have descoped the contract so that the existing 
contract is no longer doing any developmental work with RAMP.
    Mr. Thompson. But we are paying them to keep whatever they 
did?
    Mr. Patterson. We are asking them to keep--yes, sir--to 
maintain the data that we had developed and we have in RAMP so 
that we can move it to another venue in the near future.
    Mr. Thompson. So do you know if your contract had any 
measurements that said, ``Now that we have hired you to do it 
it must work,'' or how do we get into spending this kind of 
money and at the end of the period it not work? Look, I know 
you inherited the baby. I just need you to figure out what 
happened.
    Mr. Patterson. Right. I had asked the senior members of the 
contractor to come in and talk to me about why RAMP doesn't 
work. I asked each one of them why is it that it didn't work 
and to a person they said, ``We understand that it didn't 
deliver what we said it would deliver but we can make it 
work.''
    Mr. Thompson. With more money.
    Mr. Patterson. With more money, yes, sir. Yes, sir.
    Mr. Thompson. Okay.
    Mr. Patterson. As I began to make my way through to visit 
our regions to talk to our folks in the field about why RAMP 
doesn't work it was very clear to me that if we were to 
continue down the same path we would be just throwing good 
money after bad.
    Mr. Thompson. Well, thank you.
    Mr. Goldstein, did you all look at RAMP and did you make 
some recommendations on it?
    Mr. Goldstein. Yes, sir. We have completed a report that we 
expect to issue shortly to you, sir, that should be available 
within a matter of weeks now.
    Mr. Thompson. Okay. I look forward----
    Mr. Goldstein. It evaluates the entire process and problems 
of how RAMP was developed and what happened to the program.
    Mr. Thompson. General, I am--you know, you have been there 
9 months, and--you know, but for better or worse you are there. 
Did anybody lose their job over the RAMP contract?
    Mr. Patterson. Well, we have moved--I have moved people 
within my--within the Federal Protective Service who were 
managing RAMP. They didn't lose their job but they have been 
moved.
    But I will tell you, sir, one of the things that we have 
done in order to move this program forward is to create a great 
partnership with Infrastructure Protection and looking at how 
they conduct their assessments within the private sector within 
the critical infrastructure protection sector. I will tell you, 
I am very confident that as we look forward and move forward 
with them and how they are looking at how they do it I think--I 
am really excited about the way forward and the challenges with 
RAMP.
    Mr. Thompson. Well, did the contractor who failed to 
perform lose the contract?
    Mr. Patterson. The contract was descoped and when we move 
on he will have lost the contract because the contract was 
for--was to go run for 10 years.
    Mr. Thompson. So descoped means what?
    Mr. Patterson. Descoped means there is no more development 
by this contractor.
    Mr. Thompson. Are they still doing work for FPS?
    Mr. Patterson. The only work that they are doing is 
maintaining the databases that we asked them to create.
    Mr. Thompson. So that is the only work they are doing?
    Mr. Patterson. Yes, sir.
    Mr. Thompson. Yield back.
    Mr. Lungren. The gentleman yields back.
    Happy to recognize Mr. Long, the gentleman from Missouri, 
for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman.
    Mr. Patterson, when you took this job back in--what was it, 
September 2010?
    Mr. Patterson. Yes, sir.
    Mr. Long. Before you took the job did anybody tell you that 
you were going to be in charge of securing 9,000 Federal 
facilities and caring for 1.4 million people?
    Mr. Patterson. They didn't tell me, sir, but I did find--I 
did some----
    Mr. Long. Found out after the fact?
    Mr. Patterson. I did some research, yes, sir.
    Mr. Long. Because I am going to question why you took the 
job if that is--do you think that it could possibly be too big 
a task for one organization to be trying to ride herd on 9,000 
facilities and 1.4 million people concerned about their 
security. Is there a chance that we need to look at a different 
model than what we have today?
    Mr. Patterson. No, sir. I think we can do it. I just think 
that we just need to begin to look at a focused approach and 
begin to better develop the tools in our toolbox to make this 
happen.
    But I believe that we can do that. I don't think that there 
would be any benefit into breaking this up. I think that the 
focus of a single organization or single agency over this can 
do it and can do it effectively.
    Mr. Long. What percentage of hired guards or whatever, like 
the one where the package got through back in February of this 
year, what percentage are not Federal employees, and are any 
Federal employees that are guarding that?
    Mr. Patterson. No, sir. We don't have--none of our PSOs, 
none of the folks who are standing post are Federal employees. 
They are all contract employees--contractors.
    Mr. Long. On this RAMP issue, I heard Mr. Thompson in his 
opening remarks say it was virtually a worthless program and 
then I was very surprised to hear you and Mr. Goldstein both 
talk about it like it was an integral part of what you are 
doing and we are going to go forward with it. What was it 
designed to do that it doesn't do?
    Mr. Patterson. Well, sir, RAMP was supposed to do a couple 
of things. It was supposed to help us do post tracking. That 
means I need to know every day that if I have 9,000 posts that 
need to be manned I need to know that there are guards--PSOs--
on each one of those posts, okay, and that is----
    Mr. Long. That would be handy.
    Mr. Patterson. Yes. Yes. Absolutely. So it is supposed to 
help us do that.
    It is also supposed to help us do facility assessments. 
Each one of these facilities must be assessed for 
vulnerabilities so that we can provide the tenants knowledge of 
what the vulnerabilities are or what the threats are to those 
facilities. So RAMP was supposed to help us do that.
    Mr. Long. It is not?
    Mr. Patterson. Not at this time.
    Mr. Long. You can't go to RAMP and find out if all 9,000 
posts are being manned, then?
    Mr. Patterson. No, sir. I can't.
    Additionally, provide guard certification. We wanted one 
place that we could go to ensure that at any given time that 
each one of our PSOs was certified--that means trained to stand 
post. Before a guard is allowed to stand post he must be--he or 
she must be trained and then we give them the authority to go 
ahead and stand that post.
    So, but RAMP was supposed to help us do that and----
    Mr. Long. We are not doing that either?
    Mr. Patterson. No, sir.
    Mr. Long. Okay. Might have been easier to ask what does 
work about it than what doesn't, but continue.
    Mr. Patterson. That is it, sir.
    Mr. Long. Okay. That was the two things that is was 
supposed to do?
    Mr. Patterson. No, three things. The post tracking, and the 
assessments, and the certifications.
    It helps us to compile all of that information and better 
understand where we may need to make changes and better 
understand the threat. So it is a risk management tool for us.
    Mr. Long. Forty-one million dollars and it doesn't seem 
like it is that complicated of an issue to cover those three 
things. Aren't you--I mean, I know, as Mr. Thompson said, you 
inherited it, but I guess I would be curious, the ones that 
have been reassigned, were they promoted?
    Mr. Patterson. No, sir, they weren't. But I will tell you, 
as I stated before, that I believe that we are moving in a very 
positive direction with RAMP. I have worked with and had time 
with the I.P. brethren and understand how they do it, and they 
have some very robust programs that do very much what we want 
to do and I think we can leverage that and leverage that 
capability and leverage that technology that they have already 
had existing to make RAMP move forward or to help RAMP to move 
forward.
    Mr. Long. Okay. Thank you for being here and your testimony 
today.
    You too, Mr. Goldstein. I think I am running out of time to 
ask you my questions but I yield back.
    Mr. Lungren. Gentleman yields back, and Mr. Richmond, from 
Louisiana, is recognized for 5 minutes.
    Mr. Richmond. Thank you, Mr. Chairman, for conducting and 
having this hearing, and thank you to the Ranking Member.
    Mr. Goldstein, Mr. Patterson, thank you for coming.
    I just have some very basic questions. Looking at the 
incident, I believe, in Detroit, it appears that the company 
fired the employee who brought the package inside and put it in 
lost and found, correct?
    Mr. Patterson. Yes, sir.
    Mr. Richmond. So if we follow their logic of zero 
tolerance, and dismissing that employee for their failure, why 
wouldn't we fire the firm who hired the employee and show the 
same zero tolerance for protecting our Federal employees and 
our citizens that take the time to come visit Federal buildings 
and need services?
    Mr. Patterson. Yes, sir. I had asked our contracting office 
what was in the realm of the possible relative to whether or 
not we could dismiss this company and their review suggested 
that this wasn't just about a single incident. Formally and 
legally they had to take a look at the entire performance of 
the contractor.
    That review is still being done, so--and a--what we call a 
contract performance appraisal review is yet to be written. It 
will be written, I think, within the next 60 days. So I guess 
that it is still possible that it could happen but it was not 
something that could take place immediately.
    Mr. Richmond. I would just say, not looking at the contract 
but being a lawyer, that there's probably a for cause provision 
in there and we don't have to argue about it, but I would just 
imagine that it--had that bomb gone off that it would have been 
good cause to do it and we should look at it as if it did 
because it had the potential to do that. We will move on, and 
thank you for that answer, but I think we ought to show the 
same zero tolerance.
    The second thing is, as we talk about the private companies 
that do the security--and I will just tell you, as someone from 
an urban city, that people without the ability to arrest don't 
get the same respect as police officers and other people, I 
mean--and I don't say this to perpetuate the stereotype, but at 
home they are called either rent-a-cops or flashlight cops, and 
to the extent that that is the perception of what is guarding 
our Federal buildings, that is a concern for me when you talk 
about their training and their ability to arrest.
    Do you all--and I would ask the GAO also--do you all get 
that feedback in terms of from the private companies that 
patrol and stand post at the buildings?
    Mr. Patterson. I haven't really gotten that feedback, sir, 
but I will tell you that presentation--the presentation of our 
PSOs is important. How they present themselves, their training, 
and all of that is very important. Just to be clear, our PSOs 
are allowed to detain, so if there is a problem they can detain 
an individual and then they immediately call one of our 
inspectors who can come in and arrest if that is necessary.
    Mr. Goldstein. Congressman, our experience is that the PSOs 
and their companies do try very hard to maintain a professional 
appearance. One concern I do have, as you indicate, without the 
authority to, you know, to arrest, even the detention 
authority, often we have found in our experience, is not 
utilized. Our previous work has shown that in a number of 
instances security guards have actually stepped back from 
taking any action whatsoever because either tacitly or 
otherwise their firms have told them not to do anything that 
would get them in any legal action, and we have documented this 
in our reports in the past.
    The other issue I would briefly mention that you raised 
regarding the performance evaluations of a contractor that 
General Patterson referred to, our previous work has shown that 
many of the contract files that FPS maintains on its 
contractors do not have adequate information of files on which 
to judge the evaluation, and so it may be difficult for Mr. 
Patterson potentially to take action in the sense that it is 
depending on what is found in that file.
    Mr. Richmond. Thank you.
    The last question--and I have very little time left--but, 
Mr. Patterson, I noted here, and I don't know if I wrote it 
down correct, that they have to be trained before they stand 
post but we don't have a system to know whether the person who 
is standing post has been trained or not. Did I hear that 
correctly?
    Mr. Patterson. No, yes. One of the things that we were 
trying to--attempting to do was to push all of that 
documentation to a central point. As of 1 July we no longer do 
that. We push all that documentation now to the regions, so the 
regions now who are geographically aligned with the contractors 
now know whether or not the folks who are standing post--in 
real time--whether, if they are trained or not.
    Mr. Richmond. Okay. I see I am out of time, but I would 
just add that, you know, if we had that zero tolerance with the 
contractors that if they put someone standing post who is not 
certified that we would terminate contracts. I think that may 
send a message that that is something you ought not do.
    But thank you, Mr. Patterson. I have all the confidence in 
the world that you will right the ship that you inherited, and 
I look forward to working with you in the future.
    Mr. Lungren. Gentleman yields back his time.
    Mr. Marino is recognized for 5 minutes.
    Mr. Marino. Thank you, Chairman. I apologize, I got called 
out on an emergency, and I do not like to ask questions without 
hearing what my colleagues have asked. I am going to ask a 
general question and leave it at that and just ask both 
gentlemen to respond to it if it hasn't already been asked.
    In addition to needing more money what can we do in 
Congress to facilitate you to improve your--to help improve 
your ability to protect us?
    Mr. Patterson. Sir, for me, very simply, your continued 
interest and wanting to help is what--is really what helps me. 
The idea that I am sitting here and--before this august 
committee and you asking me is help in itself. So we will do 
our best to try to get you the information through our 
Department and in other venues to allow you to better 
understand how the Federal Protective Service can use your 
help.
    Mr. Goldstein. I would say strong oversight, Congressman. I 
think continued vigilance by this and other committees is 
critical to ensuring that the FPS can have both the resources 
and the impetus within the Department of Homeland Security to 
achieve its mission effectively, because as many of you have 
stated previously, this is not an agency that has always 
received the attention it needs. It is an agency that, I think 
Ms. Clarke said, is a stepchild at times and does require, I 
think, support to ensure that this critical mission is 
achieved.
    Mr. Marino. Thank you, gentlemen.
    I yield back my time.
    Mr. Lungren. Gentleman yields back.
    Now the Chairman would recognize Mr. Keating, from 
Massachusetts, for 5 minutes.
    Mr. Keating. Thank you, Mr. Chairman and Ranking Member.
    Question, maybe a comment. First question is to what 
extent, and are you satisfied to this extent, that your agency 
is internally trying to send people out to see if security can 
be breached? Are you testing yourself internally by sending 
people out to check the security of these facilities and are 
you satisfied that that is done enough if it is the case?
    Mr. Patterson. Yes, sir. We employ a covert testing program 
as well.
    Mr. Keating. Now, looking at the GAO report one of the 
things that troubles me--and I do not have an answer; it is 
more in nature of a comment, but it has to be resolved--is 
this, because actually my father was head of security for a 
Fortune 500 company that had defense contracts and one of the 
things I knew was they had to be in cooperation and 
understanding with local police. There are no letters of 
understanding, you know, as indicated.
    If you don't have the ability to be able to deal with the 
local police in those cities and towns that are there--or 
counties, whoever is jurisdictionally in charge--and you don't 
have that understanding in place you have inherently got a 
terrible breach of security just there in trying to react to a 
crisis because if that is not in place and it is not seamless 
then there is going to be a problem even if people act, you 
know, according to their training.
    Mr. Patterson. Congressman, to this point we have never had 
an instance where we had not had great cooperation of the State 
and local forces--police--any time that we needed them. One of 
the proactive things that our inspectors do are continuing to 
develop those relationships with State and locals and 
collaborate on various levels. We are active participants in 
the fusion centers along--which are Homeland Security-sponsored 
but belong to the State and local authorities, and we 
participate in those.
    So to date we really haven't found the need to create 
written documents, or documentation, or requirements, or MOUs, 
or agreements at this point because any time we call the State 
or local, I mean, they respond, and so we haven't had a problem 
to this point.
    Mr. Keating. I yield back my time. Thank you.
    Mr. Lungren. Gentleman yields back.
    The gentlelady from California, Ms. Richardson, is 
recognized for 5 minutes.
    Ms. Richardson. Yes. Thank you, Mr. Chairman, for holding 
this hearing today.
    First of all, my first question is, in the next panel we 
are going to hear from a security organization, and one of the 
things that they point out is that although ``FPS is being more 
proactive and positive with contractors, such as the 
establishment of regional industry days and quarterly meetings 
with individual contractors and a greater willingness to 
address the legal liability issues, there is so much more that 
can be done to improve the relationship. Only recently has FPS 
sought out the experience, expertise, and views of its partners 
on the small amount of substantive contract guard program 
initiatives,'' and it goes on.
    Have you had an opportunity to read the testimony of the 
folks coming after you?
    Mr. Patterson. I have not. No, ma'am.
    Ms. Richardson. Okay. What do you think about that, in 
terms of the concerns of engaging your stakeholders through 
this process?
    Mr. Patterson. I am continually, and my seniors are 
continually, engaging our stakeholders very proactively.
    Ms. Richardson. In the testimony they say that there has 
been an improvement since you have been on-board but it is not 
sufficient.
    Mr. Patterson. I will have to go back and study that, 
ma'am.
    Ms. Richardson. Do you have those stakeholder groups that 
you work with that is a part of any of the new changes and you 
had an opportunity to go back and forth on a regular basis?
    Mr. Patterson. Nothing on a regular basis, ma'am. One of 
the initiatives that I have is that as I get out to my regions 
I am out visiting all of the stakeholder seniors, at least, in 
our region areas, and we are starting to develop--as I am 
building my leadership team, we are beginning to assess how we 
might do that outreach on a continuing basis. But no, I don't 
have a--today I don't have a proactive methodology for doing 
that.
    Ms. Richardson. Okay. Well, I might suggest that you 
consider taking them up on their offer and engaging them.
    My next question is: How does FPS measure the performance 
of its private security contractors, and if so, how frequently 
are the performance evaluations conducted?
    Mr. Patterson. Well, clearly every year we create something 
that is called a CPAR, and that is the contractor performance 
appraisal review. We have CTRs, contracting technical 
representatives, who are responsible for providing information 
and feedback to the contracting office as those CPARs are 
provided. So every year we do an evaluation on the performance 
of each one of the contractors.
    Ms. Richardson. My next question, building upon that: In 
the February incident in Detroit, which also Mr. Richmond 
discussed as well, the company providing security for the 
building received a small monetary fine and was required to 
provide additional training. Is this your typical response for 
a review?
    Mr. Patterson. No. Actually, one individual was fired. 
Actually, there were four individuals who were removed from 
that contract; 14 were suspended; and three received written 
warnings.
    We did go up immediately--once we identified that there was 
a problem we immediately sent a team up to evaluate all of 
the--the contractor's performance at that location as well as 
provide training. So I think we----
    Ms. Richardson. Had you evaluated that facility prior to 
the incident?
    Mr. Patterson. Yes. When we conduct Op Shield we evaluate 
the facility and the inspector who found the device was 
evaluating that facility--was evaluating the facility that day.
    Ms. Richardson. So just that day they were beginning to do 
their annual evaluation?
    Mr. Patterson. No, ma'am. I don't know exactly how often 
that facility was visited, but it is visited on a routine basis 
but I can't tell you exactly how often it is.
    Ms. Richardson. So my question goes back to my first 
question: If you are evaluating the facilities on an annual 
basis, and if you are saying this facility was evaluated, what 
does that say in terms of the evaluation that is being done?
    Mr. Patterson. I am not sure I understand your question.
    Ms. Richardson. The question is, you are saying that this 
facility was evaluated, right?
    Mr. Patterson. I am saying that our inspectors have visited 
that facility.
    Ms. Richardson. Had they performed an evaluation?
    Mr. Patterson. I don't know when the last evaluation for 
that facility was done.
    Ms. Richardson. Could you supply to the committee, for the 
records of the incidents that have been noted in this 
committee----
    Mr. Patterson. I can.
    Ms. Richardson [continuing]. What process you did prior to 
the incident and then thereafter?
    Mr. Patterson. Yes, ma'am. We can.
    Ms. Richardson. Okay.
    Mr. Chairman, would you indulge me to ask one more 
question, please?
    Thank you, sir.
    In 2003 there were 10 major cities where FPS had a 24-hour 
law enforcement coverage. There are now only two. Which two 
cities have the 24-hour coverage and what factors went into 
dropping the other eight cities from 24-hour coverage?
    Mr. Patterson. I will have to get back to you on that one 
as well, ma'am. I don't know.
    Ms. Richardson. Thank you.
    I yield back.
    Mr. Lungren. The gentlelady yields back.
    Under unanimous consent Ms. Jackson Lee was given 
permission to sit on the subcommittee, although she is a Member 
of the full committee, not this subcommittee. So if she has any 
questions at this time she will be recognized for 5 minutes. If 
not, I would excuse the panel.
    Ms. Jackson Lee. Mr. Chairman, thank you for your kindness 
and I will--I do have some questions.
    First of all, let me thank the witnesses. I just have a 
little anecdotal story that is taking up my time is that we 
were meeting with the Transatlantic Dialogue of European Union 
member countries and--this morning--and the key topic--I will 
exaggerate and say standing room only--was on cybersecurity. So 
I believe this is truly important.
    I would like to just ask both Mr. Patterson, as my--as I am 
ably getting some other issues--and Mr. Goldstein--and I missed 
your testimony so I apologize, but what is the level of how 
serious--how devastating is the potential hacking in Government 
entities? I know that the United States military a year ago had 
severe hacking and loss of data. I also know a couple of years 
ago someone in the Veterans Affairs Department lost or misused 
data, or lost a laptop, and that we didn't really connect what 
was happening then.
    So how much in jeopardy are our Federal assets with respect 
to hacking?
    Mr. Patterson. Ma'am, I can't address that specifically, 
but I can tell you that as part of our assessment process going 
forward what we are looking at is not only the vulnerabilities 
from threat from terrorists, or criminal threat, or 
environmental threat, but also the threat through the cyber 
system. That is one of the things we historically, from the 
Federal Protective Service, we have not looked at, but since 
our alignment with NPPD and because we are closely aligned not 
only with infrastructure protection but also with cybersecurity 
that is one of the things that we have chosen to put on our 
plate to begin to understand and assess not only what are the 
threats from the physical aspect but also from the cyber 
aspect.
    Ms. Jackson Lee. I understand that we have asked on a 
number of occasions what is your relationship with NPPD as it 
goes--undergoes its reorganization; we have not got an answer. 
Are you an equal among equals, or how are you relating and able 
to solve problems working with NPPD on this very important 
question?
    Mr. Patterson. From my perspective, ma'am, we are an equal 
among equals. I have an incredible relationship with the under 
secretary, and I have a great relationship with all of our--
with the other subcomponents of NPPD. In fact, that is what is 
helping us to move aggressively forward----
    Ms. Jackson Lee. So what specifically are you doing with 
this partnership?
    Mr. Patterson. Well, again, for RAMP, when the problems--
when I understood we were having problems with RAMP, when I 
identified the problems we were having with RAMP, I sat down 
with our infrastructure protection folks to figure out--to 
better understand what do they do to protect the 
infrastructure, not in the Federal sector but in other sectors 
that they are responsible for. As they shared that with me we 
began to collaborate and better understand how we could merge 
systems and bring systems together----
    Ms. Jackson Lee. Is that----
    Mr. Patterson. Yes, ma'am?
    Ms. Jackson Lee. Can you share that with Congress so that 
we have a better understanding how our assets are being 
protected?
    Mr. Patterson. Yes. We are doing that right now. This is 
what we are----
    Ms. Jackson Lee. Well, I know you can't get it all in. Is 
there some report or some assessment that I may have missed?
    Mr. Patterson. No, ma'am. What we are doing right now is 
RAMP--is we are moving from one contractor to another. We are 
looking at an interagency agreement with Energy that would 
allow us to leverage a contract that is currently in use by 
infrastructure protection.
    Ms. Jackson Lee. Let me thank you. Let me go to Mr. 
Goldstein quickly.
    How serious is our problem? Is this a good answer to the 
protections that we need?
    Mr. Goldstein. I think that RAMP can be a useful tool if it 
is developed correctly. Now, whether or not you need all of 
those in one program, that is a policy decision that FPS has 
made.
    You certainly do need to have a strong program to ensure 
that people are trained and certified. We don't have any 
assurance that that is occurring today.
    We need to have a building security assessment program that 
is robust. There are significant weaknesses in it today.
    We don't have an understanding of, on any given day, 
whether our contract workforce is showing up, and where they 
are posted, and what is going on with them in a way that can be 
evaluated against risks that might exist.
    So those are all important components. The agency is 
understanding that these are not working today and it is trying 
to put in place a new program that might help them get there. 
Whether or not they can achieve that, you know, I think remains 
to be seen----
    Ms. Jackson Lee. Training is important on these 
contractors?
    Mr. Goldstein. Training is critical, ma'am. In one 
Operation Shield that I went to late last year where the 
agency's inspectors were able to get weapons through the 
magnetometers and the X-ray machines undetected, of the 11 
people standing post only two had had training.
    Ms. Jackson Lee. Let me thank the Chairman on allowing me a 
broad range of questioning, and I thank the Ranking Member for 
her courtesies as well.
    Mr. Lungren. I thank the gentlelady. Her time is expired.
    We have had our round of questions for these witnesses. We 
thank you for your presentation and we would excuse you now.
    I would ask that our second panel come forward, that is Mr. 
Wright and Mr. Amitay.
    All right. We thank our two members of the second panel for 
taking the time to be with us.
    Steve Amitay is the president of Amitay Consulting, a 
lobbying and consulting firm in Washington, DC. Since 2006 he 
has served as Federal legislative counsel for the National 
Association of Security Companies, NASCO, the Nation's largest 
contract security association.
    For the past 12 years he has represented ASIS 
International, the world's largest association of security 
professionals, and was involved in the Congressional passage of 
the Private Security Officers Employment Authorization Act. Mr. 
Amitay previously served as a professional staff member on the 
then-Senate Governmental Affairs Committee's Subcommittee on 
Government Efficiency, Federalism, and the District of 
Columbia.
    Mr. David Wright started with the Federal Protective 
Service in July 1986. He was promoted to inspector in the year 
2000, and in January 2006 he formed a local--chartered by the 
American Federation of Government Employees in April 2006. He 
has held the position of president since that time. Mr. Wright 
is a U.S. Navy veteran.
    Mr. Wright has a report to be included with his testimony 
that was distributed in advance and so I ask unanimous consent 
to include his report in the hearing record. Hearing no 
objection, it is so ordered.*
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
    Gentlemen, your testimony--your written testimony--will be 
made a part of the record in full, and we would ask that you 
would attempt to summarize your remarks within 5 minutes.
    Mr. Amitay, I would now recognize you to testify.

  STATEMENT OF STEPHEN AMITAY, LEGISLATIVE COUNSEL, NATIONAL 
               ASSOCIATION OF SECURITY COMPANIES

    Mr. Amitay. Chairman Lungren and Ranking Member Clarke----
    Mr. Lungren. You need the mic.
    Mr. Amitay [continuing]. And distinguished Members of the 
subcommittee, my name is Stephen Amitay and I am Federal 
legislative counsel to NASCO, the National Association of 
Security Companies. Nearly 2 million people are employed in 
private security domestically and approximately 75 percent of 
private security officers work for contract security companies. 
NASCO is the Nation's largest contract security trade 
association, and as the leading representative of the industry 
NASCO works with legislators and officials at every level of 
government on issues that affect contract security companies 
and their officers.
    At the Federal level, as you mentioned, NASCO was the 
driving force behind the 2004 passage of the Private Security 
Officer Employment Authorization Act, which provided employers 
of private security officers Federal authorization to request 
criminal background checks on their officers. Since then NASCO 
has been working to establish an effective State and National 
process to conduct these checks.
    Of more relevance to today's hearing, over the past several 
years NASCO has worked with Congress, the Federal Protective 
Service, and the Government Accountability Office on issues of 
legislation related to FPS and the FPS contract guard program. 
We remain ready, willing, and able to provide further such 
assistance and consultation with all these entities.
    There is no doubt that FPS faces some serious challenges in 
its mission to secure Federal facilities, and over the past 
several years the GAO has uncovered deficiencies within the FPS 
contract guard program. While there have been problems with 
individual contractors and incidents of poor performance by 
security officers GAO has never inferred that contract security 
officers are not capable of providing effective security, and 
those who believe officer performance will be improved by going 
down the extremely costly and cumbersome path of Federalization 
are mistaken. One only needs to look at the current performance 
and other problems of the Federalized TSA screener force to see 
that Federalization is not the prescription for better 
security.
    What can improve the security provided by FPS and its 
contract security officers is better training, oversight, 
management, record-keeping, and contracting. In its review of 
FPS GAO has made numerous recommendations to FPS in this area. 
However, as Congresswoman Richardson inferred, the underlying 
foundation of any action taken by FPS to improve the contract 
guard program must be a strong working relationship between FPS 
and its contract security partners.
    FPS is not the only Federal agency that contracts for 
security services. There are probably about 20,000 to 30,000 
contract guards being utilized by other Federal agencies. But 
while these agencies routinely bring in security contractors to 
discuss possible changes and new requirements, put out draft 
RFPs, provide specific performance guidance when asked, and 
work closely with contractors on major initiatives, this has 
generally not been the case with FPS.
    When it comes to topics such as training, deploying, and 
supervising security officers, security service contracting, 
and other topics related to the business of security services, 
often the security contractor who is working with FPS has 
vastly more knowledge and experience than FPS contracting 
officers and inspector. It goes without saying that FPS 
contractors, just like FPS, have a vested interest in the 
success of the agency in using contract security officers to 
secure Federal facilities.
    It makes little sense for FPS not to be seeking greater 
cooperation and consultation with contractors on contract guard 
program issues. One wonders if--maybe, if contractors were 
consulting during the development of RAMP, which, as we have 
been told today, was being created to better track security 
officer certifications and post orders, if things may have 
turned out better. We look forward to working with FPS on the 
second generation of RAMP, if possible.
    Overall, a major theme being emphasized now at FPS is 
standardization, and NASCO fully agrees that greater 
standardization and consistency across all elements of the 
contract guard program will improve performance and cost 
efficiency.
    Often FPS policies and actions are not--not only vary from 
region to region, but within region from building to building 
and contract to contract. This can lead to confusion, increased 
costs, and problems with performance. Greater standardization 
and consistency is needed in contracting, training, audit, data 
management, equipment, post orders, and in other issues.
    Again, the success of FPS efforts to standardize and 
improve these elements of the contract guard program can be 
greatly enhanced if they are undertaken with meaningful input 
from contractors.
    Related to standardization and what can also improve 
contractor and security officer performance is greater guidance 
from FPS on key issues, such as how to deal with possibly 
dangerous individuals, the amount of supervision required in a 
contract, building evacuation plans, and other issues. Greater 
cooperation from FPS is also needed in disciplinary actions 
against officers and with providing certification information 
about incumbent officers when a contract is up for bid.
    Through greater standardization, providing better guidance, 
adopting successful contracting and management policies, and 
most of all, through a better working relationship with 
security contractors, FPS not only can increase the level of 
security provided at Federal buildings but also do so in a 
cost-efficient manner.
    In closing, under the tenure of Director Patterson FPS has 
reached out to contractors in new and positive ways, which bode 
well for future relationship and cooperation between FPS and 
its contract partners. NASCO and the contract community stand 
ready, willing, and able to work with FPS and Congress to 
address the current challenges that are impeding better 
performance by security officers and contractors at FPS.
    Thank you.
    [The statement of Mr. Amitay follows:]
                  Prepared Statement of Stephen Amitay
                             July 13, 2011
                background on nasco and private security
    NASCO is the Nation's largest contract security trade association, 
whose member companies employ more than 300,000 security officers 
across the Nation who are servicing commercial and Governmental clients 
including the Federal Protective Service (FPS). Formed in 1972, NASCO 
strives to increase awareness and understanding among policy-makers, 
consumers, the media and the general public of the important role of 
private security in safeguarding persons and property. At the same 
time, NASCO has been the leading advocate for raising standards for the 
licensing of private security firms and the registration, screening, 
and training of security officers, and NASCO has worked with 
legislators and officials at every level of government to put in place 
higher standards for companies and officers. As the recognized source 
of information and views for the contract security industry, NASCO 
regularly holds seminars and other events for industry which provide a 
forum for information and interaction with Members of Congress, 
Congressional staff, Federal officials legal and policy experts on 
Governmental and other issues and activities affecting the private 
security industry.
    At the Federal level, NASCO was the driving force behind the 2004 
passage of the Private Security Officers Employment Authorization Act 
(PSOEAA), which authorized all employers of private security officers 
to request FBI criminal background checks on their officers, and NASCO 
is continuing to work to establish an effective and comprehensive 
PSOEAA check process. Of more relevance to today's hearing, for the 
past several years, NASCO has worked closely with both the House and 
the Senate Homeland Security Committees, the Federal Protective Service 
(FPS), and the Government Accountability Office (GAO) on issues and 
legislation related to FPS and the FPS Contract Guard Program. NASCO 
testified at the two hearing last Congress on FPS that were held by the 
Full Committee.
    Nearly 2 million people are employed in private security 
domestically compared to fewer than 700,000 public law enforcement 
personnel. Approximately 75 percent of private security personnel work 
for contract security companies, with the balance serving as 
proprietary or ``in-house'' security. The vast majority of contract 
security firms employ many former law enforcement and military 
personnel in management and as security officers. Private security 
officers are guarding Federal buildings, courthouses, military 
installations, critical infrastructure facilities, businesses, and 
public areas. Private security officers are often the ``first'' 
responder on the scene of a security or terrorism-related incident 
providing crucial support to public law enforcement. In addition, with 
increasing fiscal pressure on Governmental entities, private security 
is increasingly relied upon to fill the gaps resulting from law 
enforcement funding cutbacks.
    At the Federal level, not including the military services, there 
are approximately 35,000 to 40,000 private security officers working 
for various Federal agencies with almost 15,000 at FPS.
              challenges of the federal protective service
                              introduction
    There is no doubt that FPS faces some serious challenges in its 
mission to protect over 9,000 Federal facilities of which at over 2,300 
facilities approximately 15,000 contract Protective Security Officers 
(``PSO's'') are deployed. And over the past several years, the GAO has 
uncovered deficiencies within the FPS ``Contract Guard Program.'' 
However, GAO has never inferred that contract security officers are 
incapable or unable to provide effective security, and GAO has made 
repeated recommendations to FPS of steps it should take related to 
training, oversight, management, contracting, and recordkeeping that 
will improve the operation of the Contract Guard Program and PSO 
performance.
    NASCO believes that FPS, working with security contractors, can 
address the current challenges, laid out in this testimony, that are 
impeding better performance by PSO's and contractors. NASCO also stands 
ready to work with the Members of this subcommittee and others in 
Congress to improve the operation of FPS through authorization and 
reform legislation.
    Under the tenure of Director Patterson, FPS has reached out to 
contractors in new and positive ways which bode well for the future 
relationship and cooperation between FPS and its contractor 
``partners.'' FPS security contractors have considerable expertise and 
working experience in matters related to contract officer training, 
deployment, tracking, communication, that can benefit FPS. One wonders 
if maybe contractors were consulted during the development of the RAMP 
program, which was touted as an easy to use interactive database that 
would track PSO records, things may have turned out better.
    Overall, a major theme being emphasized now at FPS is 
standardization and NASCO fully agrees that greater standardization and 
consistency across all elements of the Contract Guard Program will be 
of great benefit to FPS and contractors. Often FPS policies and actions 
not only vary from region to region but within regions from building to 
building and contract to contract. In addition to working more closely 
with contractors, FPS could also benefit from adopting successful 
contracting and management policies and procedures that other Federal 
agencies use with their contract security contracts and contractors.
    While there is much to criticize and question at FPS, it must be 
emphasized that the relative situation for contractors has improved 
dramatically over the past couple years and under Director Patterson 
the degree of communication between FPS and contractors is at a new 
level. Whether this better attitude translates into working 
relationships on various items--and currently no mechanism exists for 
new initiatives to be vetted through industry prior to implementation--
remains to be seen, but the contracting community has reason to 
optimistic.
                    federalization is not the answer
    While some have suggested that the solution to improving security 
officer performance is to ``Federalize'' the FPS contract security 
officers, such a ``solution'' lacks any substantive rationale or proof. 
In fact, one can look at the current performance problems of the 
Federalized TSA screener force (and performance comparisons with non-
Federalized airport screeners) and it abundantly clear that the 
``Federalization'' is not the prescription for better screening 
performance. What is clear though about ``Federalization'' is that it 
would greatly increase the costs to FPS and the American people. In 
2009, in response to a question at a Senate FPS hearing, then FPS 
Director Gary Shenkel estimated that on an annualized cost basis (thus 
not including retirement benefits) Federalizing FPS security officers 
would increase costs by about 35% or an extra $400 million per year.
    Additionally, in the private sector, constant competition from 
other contractors creates an incentive to perform well, employ best 
practices, eliminate waste, and seek to constantly improve. Such 
performance drivers are not present in the Federal sector and the 
Federal workplace is beset with additional employee performance and 
motivation issues. Finally, as the TSA Federal screener program has 
revealed, the same entity should not serve as the regulator, operator, 
and auditor of security services.
the need for greater cooperation between fps and contractors and better 
                              fps guidance
    As noted above, while the relationship between FPS and contractors 
seems to be on the upswing, one problem that has plagued FPS for years 
is its treatment and lack of consultation with security contractors. 
FPS is not the only Federal agency that contracts for security 
services, but while other agencies routinely bring in security 
contractors to discuss possible changes and new requirements, put out 
draft RFP's for contractors to comment upon, provide specific guidance 
when asked, and work hand-in-hand with contractors on key issues, this 
has generally not been the case with FPS. When it comes to topics such 
as the training, deploying, and supervising of security officers at 
buildings, security service contracting, and other topics related to 
the ``business'' of security services, often the security contractors 
working with FPS have vastly more knowledge and experience than FPS 
contracting officers and inspectors. It also goes without saying that 
FPS contractors have a vested interested in the successful provision of 
security at Federal facilities by FPS and they want to see FPS operate 
as effectively as possible.
    While there are signs that FPS is being more proactive and positive 
with contractors such as the establishment of Regional Industry Days 
and quarterly meetings with individual contractors, and a greater 
willingness to address ``legal liability'' issues, there is still much 
more that can be done to improve the relationship. Only recently, has 
the FPS sought out the experience, expertise and views of its 
``partners'' on a small amount of substantive Contract Guard Program 
initiatives. In addition, in many key areas related to PSO performance 
and contracting, FPS has not adequately addressed contractor concerns 
and provided clear guidance. Not only can a better working relationship 
between FPS and contractors and better guidance provided to contractors 
lead to improved and more effective building security, but it could 
also save FPS money.
    As mentioned above, FPS contractors were not consulted during the 
development of RAMP and were constantly told different things about the 
system. Now, after a year or so of operation, RAMP could prove to be a 
very costly mistake. Even when it was up and running, there were major 
problems, mostly relating to fact that contractor's could not access 
the database.
    While not as drastic, a similar misstep was brewing with the 
current FPS effort (``National Training Initiative'') to increase and 
improve the substance and delivery of PSO training. Currently PSO 
training totals about 128 hours of which 112 is provided by the 
contractor. No one will argue that PSO training needed to be updated, 
improved, and standardized, and some of the improvements that have been 
rolled out so far have been very positive. At the outset of the 
initiative several years ago, during a PSO ``job task analysis'' 
contractors (including NASCO) were consulted. However, for a long 
period of time not much about the NTI was revealed to contractors nor 
was there any consultation. Thus, it came as quite a shock to the 
contracting community last December when FPS shared with NASCO a 
proposal to replace the current 128 hours of training with an existing 
337-hour FLETC training program for ``Infrastructure Protection 
Officers.'' Yes, such training would be standardized and likely to 
improve performance, but logistically it would be incredibly difficult 
to undertake and the costs would be astronomical. After receiving 
further input, FPS drilled further down on what training was needed for 
PSO ``critical tasks'' and determined such a program was not necessary.
    Related to the lack of contractor input on the ``National Training 
Initiative'' is a similar lack of contractor input on a concurrent FPS 
effort to improve X-ray and Magnetometer training called the ``National 
Weapons Detection Training Program''. The Program would increase 
current FPS provided X-ray and Magnetometer training--a crucial piece 
of training--from 8 hours to 16 hours. FPS proposed the new training 
after the first 2009 GAO Report that found weaknesses in the 
performance of PSO's and FPS training. Last year, GAO reported that the 
16 hours of training was supposed to be delivered to all PSO's by the 
end of 2010. At last check, the training program was still under review 
and revision at FPS HQ--almost 2 years after it was proposed. Again, 
contractors, who have extensive experience with X-ray/Magnetometer 
training, including their own programs that have been certified by 
other Governmental entities, have not been consulted by FPS on 
developing the new training nor approached on any type of beta testing 
of the new program in the field.
    Also, guidance from FPS to contractors is lacking in many critical 
areas despite repeated attempts by contractors to obtain clearer 
guidance. One such area is guidance related to detaining individuals. 
There is a thin line between what constitutes detention and what 
constitutes an arrest, and a PSO and his employer could face legal 
liabilities in cases of ``false arrest.'' Contractors have told FPS 
that the current Security Guard Information Manual (SGIM) is vague and 
unclear in this area.\1\ Making the situation more confusing, FPS 
officials in the field are giving PSO's detention instructions that 
differ from what is in the SGIM. Despite these obvious problems, FPS 
has yet to provide stronger and more consistent guidance in this area.
---------------------------------------------------------------------------
    \1\ For instance, PSO's are sometimes required to pat down 
individuals and if something is found the individual is asked to remove 
it. However, in cases where the individual refuses, there is no 
guidance.
---------------------------------------------------------------------------
    Related to a lack of guidance is a lack of cooperation with 
disciplining officers. Both FPS and contractors would benefit from 
greater coordination and mutual support with regard to the discipline 
and removal of contract security officers. Contractors fully understand 
that it is the contractor's responsibility to discipline employees. 
However, when discipline is based solely on the observations or 
information provided by FPS or other Government officials, it is 
critical that the contractor be able to present those observations or 
information in any subsequent labor or legal action. Currently, FPS is 
reluctant to permit its officials to testify in labor arbitrations, to 
provide videotapes, or even to allow the contractor to communicate 
directly with its tenant agency personnel. This can make it virtually 
impossible to defend a suspension or termination when the affected 
employee files a union grievance. FPS does not benefit when a 
terminated contract security officer wins reinstatement and back pay 
because the relevant information was withheld from the union 
arbitration.
    Post Orders represent a vexing problem for PSO's and contractors. 
Post Orders can conflict with the desires of the actual building 
manager of the facility being protected. This can put the contractor 
and the PSO in a difficult position, and potentially may compromise 
facility security. More so, Post Orders are fairly nebulous and vague, 
and can be different for functionally identical posts, such as Social 
Security Administration offices. In addition, changes to Post Orders 
are often made verbally with no concurrent written update. Similar 
problems exist with Occupant Emergency Plans (OEPs) which often are not 
current, and in some facilities are nonexistent. However, in such 
facilities, the PSO on post is still responsible for the safe and 
effective evacuation of facility occupants. Without an OEP, the 
security officer will have to rely on his own judgment, and his own 
knowledge of the facility, which may be incomplete. Every facility 
should have a current OEP for the guidance of the security officer on 
post.
    In the Senate FPS Reform bill (S. 772) there is language related to 
requiring FPS to initially update and then regularly update the 
Security Guard Information Manual and post orders for each guard post 
overseen by the FPS. A requirement to update the SGIM, post orders, and 
also Occupant Emergency Plans should be considered for inclusion in 
possible House legislation.
    Other areas in need of better guidance are Supervision and Relief 
and Dual Employment.
    On a positive note, more recently, at a meeting in the National 
Capital Region (NCR), the largest FPS region by far, FPS actively 
reached out to contractors to involve them from the ground floor in a 
new effort to utilize the Homeland Security Information Network (HSIN) 
to provide alerts, bulletins, and critical information to contractors 
on a timely basis. Later HSIN could be used to conduct on-line 
training, track posts, and fill out incident reports. FPS officials at 
the meeting stated that they did not want to create another thing that 
``we think is great'' but ``users don't like'' and FPS said they wanted 
to hear from their ``partners'' (the contractors). As such, a pilot 
program using HSIN is being set up in the NCR.
    NASCO and the FPS contractor community remain ready, willing, and 
able to work with FPS to improve the current training and delivery 
methods, improve guidance given to contractors and PSO's and assist FPS 
in any other way. Contractors have experience with various training 
regimes across the Federal Government, in the States, and the 
commercial sector. It makes sense that pilots or ``beta testing'' (like 
what is contemplated with HSIN) should be developed prior to National 
implementation of new programs and feedback opportunities should be 
built into new programs shortly after roll out. This will provide FPS 
with the ability to more quickly respond to changes that would allow 
these new initiatives to be more efficient and effective in the field.
    The HSIN pilot program represents a very positive development in 
terms of cooperating with contractors and showing them the professional 
respect that a ``partner'' deserves. However, whether this represents a 
``sea change'' in FPS' relationship with contractors remains to be seen 
and there are still a great deal of other important issues that need 
addressing.
                      training and standardization
    One area where there continues to be room for improvement at FPS is 
with the training of PSO's, including training substance, 
standardization, delivery, verification, and availability. First off 
though, FPS is to be commended for recent improvements/updates it has 
made to various PSO training, certification, and equipment requirements 
and its goal toward greater standardization of training. These include 
new physical agility test standards, increasing firearm qualification 
from once to twice a year, standardizing equipment, and other changes. 
Recently, these new standards in training helped contractors meet FEMA 
requirements to move PSO's across State lines during the recent spate 
of natural disasters.\2\
---------------------------------------------------------------------------
    \2\ With the standardized PSO training, FEMA is getting a 
consistent and expected level of PSO everywhere from CA to ND to AL. 
Although this is a positive development, it is still hindered by the 
requirement to have State and local licensure, even during emergency 
response situations. Given that there is a new, substantive training 
standard, the time might be right for FPS to approach local 
jurisdictions through MOU's (or Congress through legislation) that 
allows the temporary posting of PSOs for emergency response situations.
---------------------------------------------------------------------------
    While FPS has made strides in improving training and 
standardization, there is still room for much more. Weapons training 
and standardization is a prime example. As for training, a lack of 
consistency in approach has caused some PSOs to be disqualified where 
they might not be somewhere else in the country.\3\ Contractors are 
comfortable with and can train to any standard. FPS range review 
officers should be provided with standardized instruction in how to 
assess the training. In addition, contractors would like to see greater 
standardization in the caliber of weapons. Currently, the weapon varies 
from region to region. While some areas still use a .38 caliber 
revolver, others use a 9mm or .40 S&W semiautomatics, and yet others 
are using a .357 SIG semiautomatic. Standardization of the weapon 
caliber across all regions would have several benefits: It will permit 
contractors to create and implement a Nation-wide training syllabus and 
training standard. This will allow contractor trainers to focus on a 
single standard and improve proficiency. Standardization across all 
regions will assist with disaster and surge response, allowing 
contractors to move security officers across regions more efficiently. 
The Government would realize some cost savings long-term because the 
same weapon can be used on all contracts, and no change in weapon 
platform changes would be required when contractors change. For similar 
reasons, FPS would benefit from standardizing the requirement for OC 
``pepper'' spray. Currently, some contracts require OC spray while 
others do not.
---------------------------------------------------------------------------
    \3\ In a related example, recently some PSO's went to an FPS 
weapons qualification course dressed in Government approved fatigues, 
which have been accepted by FPS qualifiers in the past, but were not on 
that day, and so the PSO's were turned away.
---------------------------------------------------------------------------
    Another area of training where improvement is needed, and was noted 
by GAO, is building-specific and scenario-specific training.
    While FPS is to be applauded for the steps it is taking to improve 
and standardize training, there are still a number of training-related 
issues and inconsistencies that NASCO and FPS contractors stand ready 
to work with FPS and Congress to identify and address.
    Perhaps though the greatest problem related to training is not so 
much substance but the lack of FPS time and resources for training 
delivery and oversight. As more and more is added to the 
responsibilities of FPS inspectors some functions have slipped to a 
lower priority. This includes such areas as weapons training oversight 
and Government-supplied training. These cause delays in deployment of 
new PSOs and contractors build higher levels of overtime into proposals 
to compensate for these delays, thus potentially costing the Government 
more than might be expected.
    In its July 2009 report on the Contract Guard Program the GAO noted 
that in some cases the FPS provided 8 hours of X-ray/Magnetometer 
training was simply not provided to contract security officers or in 
other cases it was inadequate and not uniform. While FPS' response was: 
(1) Not all PSO posts required X-ray/Mag training; and (2) FPS would 
increase X-ray/Mag training to 16 hours, as noted above, that 16-hour 
training course still has not been developed. More so, with staffing 
shortages and competing demands, it is unlikely the training will be 
delivered efficiently and soon enough. In many cases, the single 
qualified FPS Inspector also serves as the Area Commander and 
Contracting Officer's Technical Representative, so the X-ray/Mag 
training is at best a secondary duty, more likely a tertiary duty. 
Given the scrutiny that is being applied to the Mag and X-ray 
screening, and the vital importance of this screening to keep 
explosives and weapons out of Federal facilities, this is not a good 
situation.
    As alluded to above, one solution to address the inability of FPS 
to produce on a timely basis effective X-Ray/Mag training is to consult 
with security contractors who have already developed such training on 
their own that is used for other clients and to test their PSO's.\4\ 
More so, a proven way that FPS can address its lack of training 
personnel is to follow the example of numerous State governments who 
``certify'' private trainers to provide the required training 
(firearms, handcuff, baton, ``pepper spray'') that security officers 
need to obtain State licenses and certifications. Contract trainers 
could go through an FPS ``train the trainer'' program and receive 
certification to train and qualify PSO's on the current contractor 
provided training and the X-ray/Mag training.\5\ Such a ``certified'' 
trainer program would create more uniform and ``trusted'' training and 
contractor trainers are much more flexible in terms of scheduling than 
FPS trainers and less expensive. FPS inspectors could still audit and 
spot-check training but they could reduce the amount of training 
monitoring they have to perform and would be freed up to attend to more 
important duties. In the Senate FPS Reform Bill (S. 772) there is a 
requirement that by 2014 at least 25% of all training be monitored by 
FPS. This would not be necessary with a certified trainer program and 
also would be incredibly labor intensive and disruptive for the 
contractors. In fact, due to the current overburdening of FPS staff, 
FPS is not even able to meet the current 10% monitoring requirement, 
let alone meet an increased requirement.
---------------------------------------------------------------------------
    \4\ In the past, an FPS contractor developed an X-ray/Mag training 
program that FPS stated would be a sufficient substitute for the 8-hour 
FPS provided course. However, FPS later rescinded that approval.
    \5\ Given that contractors supply the vast of amount training to 
PSO's why does FPS have to supply the X-ray/Mag training? PSO's who 
fail field X-ray/Mag tests obviously passed the FPS X-ray/Mag training 
or they would not have been deployed in the first place. The key is 
better training and better supervision in the field, not who 
administers the training.
---------------------------------------------------------------------------
             better oversight, management, and contracting
    In past reports, the GAO has called for better management and 
oversight of Contract Guard and Program contracts. Over the past 
several years, FPS has made moves to professionalize and standardize 
the contracting process and the contracting personnel with positive 
results. The ability of the industry to understand what is expected 
both in Contract Administration/Proposal Development and in Service 
Delivery/Officer Standards is much better, and it allows the Government 
to achieve a higher level of consistency/lower level of risk from 
building to building, from officer to officer.
    However, improvement is still needed. Like other agencies, FPS 
should consult more with contractors on the procurement process and the 
upfront aspects of procurement; development of the scope of work, 
establishing evaluation criteria, setting realistic and detailed 
financial parameters to ensure realistic pricing submissions--must be 
at the core of the FPS Mission to improve quality. Doing so will have 
much more effect on quality than post award remediation and training.
    Another issue is that FPS contracting personnel do not coordinate 
with FPS field personnel in creating solicitation standards and 
evaluating contractor proposals. Currently, solicitations are allowing 
contractors to propose supervision plans based on their best judgment 
of post requirements, while at the same time aiming toward a 
competitive low cost. The evaluation board accepts the proposal that it 
considers to be ``best value,'' but it appears that the FPS field 
personnel are not on board with that process. As a result, when the 
contractor attempts to implement the supervision plan that was accepted 
as part of the winning bid, the FPS field personnel often object that 
it is inadequate. Both FPS and contractors would benefit from including 
a minimum supervision requirement in each solicitation that has been 
evaluated and reviewed by the Contracting Officer's Technical 
Representative and other FPS field personnel. This will allow a better 
understanding of contract requirements, and allow contractors to fully 
price the actual requirements on the front end, instead of fighting 
with FPS for reimbursement of increased costs after the contract is 
awarded.
    A real sore point with contractors is the fact that FPS will not 
provide any of the certifications held by incumbent PSO's to the 
successor contractor, who by Executive Order, is required to offer all 
qualified PS's a position under the new contractor. Thus, when bidding 
a contract, a contractor has no idea if the current officers hold the 
proper certifications or meet the training requirements. Theoretically, 
a new contractor would have to consider pricing in full retraining and 
certification of incumbent officers since it can only guess how many 
incumbent officers fully meet the new contract requirements. It is not 
reasonable to expect the old contractor to turn over the records or for 
the PSO to have them. FPS has said it will work with contractors on 
transition issues, but a responsible bidder cannot rely upon such 
statements when formulating a proposal. A requirement for FPS to make 
available certification and qualification data could save money in the 
procurement process.
    Finally, there are still concerns that some FPS contracting 
officials are looking more at ``low cost'' than ``best value.'' While a 
``best value'' evaluation is required, there is ample evidence that 
awards allegedly based on ``best value'' are more realistically based 
on lowest cost, and technical capability and past performance are not 
being valued as they should. The FPS is now placing more emphasis on 
past performance rather than the ``low bid'' approach but price is 
still a deciding factor (the three evaluation criteria are now past 
performance, technical approach, and price). NASCO supports the 
inclusion of higher performance related standards in contracts, as well 
as taking steps to ensure that the quality of a company's training, 
personnel, management, and operational procedures--which result in a 
higher bid--are adequately considered during the procurement process. 
Companies should not be essentially penalized for going beyond the 
minimum training and management standards required by the contract.
    In terms of oversight, FPS is to be commended for its efforts at 
quality assurance through Operation Shield. Many contractors have 
similar internal Red Team exercises and see the value of this effort. 
One issue that FPS is working on is to get the results of Operation 
Shield exercises to the contractors more quickly. Currently, results 
may follow by a few days, making it difficult to determine who was 
posted on which equipment during the test and even harder to determine 
corrective action for individual officers.
    FPS is also moving in the right direction with mid-year reviews and 
the administrative process associated with suitability determinations 
for new hires. FPS is coming close to meeting the standard for response 
times. By FPS facilitating the process efficiently, PSOs are getting 
out to the field and on post faster. This cuts down on the number of 
potential PSOs who find other jobs in the midst of the process due to 
the time lag between conditional job offers and actual posting. It also 
reduces the number of backgrounds performed since we put fewer 
potential candidates through the system.
    In the area of audits, there is still a lot of inconsistency. One 
problem is that sometimes COTRS use contractors on audits who do not 
understand the contract.
                            data management
    Much has been reported on RAMP and a GAO Report is due out soon. 
While RAMP may turn out to be a failure, what still remains is the need 
to better manage and store contractor and PSO-related data. More so, 
FPS should be the central repository for all certification records. It 
is hard to understand why FPS does not maintain the documentation 
regarding all the PSO's qualifications. They are essentially 
``licensing'' the PSOs but they don't have any evidence other than an 
``entry'' in RAMP.
    Another issue that has been a persistent problem is how the 
security of individual Federal buildings is managed. Building security 
is managed by what is referred to as a Facility Security Committee 
(FSC) made up of building tenant representatives, who more often than 
not do have any security background. The FSC is commonly chaired by a 
primary tenant agency of the building. Often, the FSC is more 
interested in ``customer service'' than building security. This forces 
the security contractor to answer to two masters when the FSC does not 
want to cause any hindrance to the access to the building through the 
now more stringent access control processes as advocated by the FPS. In 
the Senate bill, S. 772 there is language that requires basic security 
training to be provided to all members of an FSC, and outlines its 
responsibilities. Security companies should also be allowed to 
participate in Facility Security Committees. While this subject matter 
may not be under the jurisdiction of the Homeland Security Committee, 
it is an important issue. Of note, the Interagency Security Committee 
will soon be coming out with a Standard for Facility Security 
Committees.
                               conclusion
    While I have outlined a host of issue and problems at FPS related 
to the Contract Guard Program, it is important to note that FPS has 
come a long way since its troubled time within ICE, and by partnering 
with quality private companies; the security of Federal buildings will 
improve. FPS' relationship with security contractors is definitely on 
the rise with greater communication between FPS and contractors and a 
willingness by FPS to work with contractors on Contract Guard Program 
issues. FPS is taking strides toward National standards that work, they 
are focusing more on training and contracting and it is getting more 
efficient. Clearly there is work to be done, but under the stewardship 
of Director Patterson, FPS is definitely going in the right direction.
    NASCO and Federal security contractor stand ready to work FPS and 
this committee to improve the performance of FPS and the 15,000 
contract Protective Security Officers deployed by FPS at Federal 
facilities.

    Mr. Lungren. Thank you very much, Mr. Amitay.
    The Chairman will now recognize Mr. Wright for his 
testimony.

   STATEMENT OF DAVID L. WRIGHT, PRESIDENT, NATIONAL FEDERAL 
  PROTECTIVE SERVICE UNION, AMERICAN FEDERATION OF GOVERNMENT 
                           EMPLOYEES

    Mr. Wright. Chairman Lungren, Ranking Member Clarke, 
Members of the committee, my name is David Wright. I am 
president of AFGE Local 918, the NPPD Union, which represents 
the dedicated men and women of the Federal Protective Service. 
I have been an FPS law enforcement officer for the past 25 
years.
    In almost 10 years since 9/11 the FPS has faced many 
challenges. During the last 3 years the need for reform has 
been well documented in numerous reports by the GAO and nine 
hearings by committees of the House and Senate.
    The Union has produced an analysis of these actions 
entitled ``Federal Building Insecurity: A Chronicle of 
Government Inaction,'' which is included in the record. It is a 
summary of GAO reports, Congressional hearings, and terror 
incidents at Federal facilities which paints a stark picture of 
much oversight and little action. It depicts an agency 
criticized, underfunded, ill-managed, and still fundamentally 
unreformed.
    Today I am here to communicate to you that the time for 
reports and hearings has passed. It is time for you to act now 
to prevent future attacks.
    The Senate Homeland Security Government Affairs Committee 
has marked up a bill which is now awaiting action on the Senate 
floor. Ranking Member Thompson of this committee has introduced 
H.R. 176, the FPS Improvement and Accountability Act of 2011. 
We encourage this subcommittee and the full Homeland Security 
Committee to consider H.R. 176 and its own version of a 
comprehensive FPS reform act as soon as possible.
    In the last 2 years an IRS office in Austin was attacked by 
a disgruntled taxpayer in an airplane. There have been attacks 
by gunmen at the Pentagon and at a courthouse in Las Vegas.
    Bombs were left at a courthouse in Spokane and at a Federal 
building in Detroit. Individuals parked and attempted to 
detonate bomb--truck bombs at a courthouse in Springfield, 
Illinois, and office building with Federal tenants in Dallas.
    Just last month there was a plot to attack a Federal 
building in Seattle with automatic weapons and grenades. 
Fortunately, the FBI thwarted the bombing in Seattle plots and 
arrested the perpetrators.
    These plots and attacks clearly indicate there are imminent 
threats to Federal workplaces. Had any of the attacks been 
successful many lives would have been lost with tragic impact 
to both Federal employees and the public.
    While everyone in our Nation hopes the successful streak by 
the FBI at thwarting these attacks will continue, we have to 
realize that hope is not a security countermeasure and we won't 
always be lucky. There are simply not enough trained Federal 
police officers patrolling our facilities that we protect to 
detect or break up terrorist planning cycle or to ensure the 
competent performance of over 13,000 contract security guards.
    FPS transferred to DHS in 2003 with 1,450 positions; today 
we have about 1,225, a cut of 18 percent. Meanwhile, the total 
number of DHS employees has increased by 18 percent.
    FPS stands alone in the DHS as the only law enforcement 
organization with less staff than it had at the Department's 
inception. Once again, FPS stands alone in the DHS as the only 
law enforcement organization with less staff than it had at the 
Department's inception.
    Even with the fiscal year 2012 proposed increase in staff 
FPS will still have less than 90 percent of the FTE and 
capability it had before 9/11. Despite public law that FPS 
maintain now fewer than 935 full-time in-service field staff 
directly engaged in enforcement of laws at Federal buildings I 
have been told that the actual number is barely 800.
    Apparently in the bureaucratic world of OMB FPS 
headquarters staff and GS-14 and GS-15 regional managers 
sitting at desks are considered boots-on-the-ground law 
enforcement. A simple reading of the statute indicates 
otherwise. This committee should immediately inform DHS and OMB 
to comply with that law.
    Clearly, with a significant increase in plots and terrorist 
attacks affecting Federal facilities immediate legislation to 
give DHS and FPS the tools and staff necessary to successfully 
protect them is critical. These tools include: Sufficient FPS 
law enforcement manpower; law enforcement retirement coverage 
for FPS officers to allow for recruitment and retention of top-
notch employees; tools to properly manage the contract security 
force; codification of the FPS mission, responsibilities, 
functions, and duties; and codification of the roles and 
responsibilities of the ISC with clear guidance that DHS is in 
charge.
    Mr. Chairman, Federal employees and Federal buildings are 
at risk. Attacks, whether successful or thwarted, are real 
threats and have already cost lives. The sole Federal agency, 
FPS, charged with the critical mission of protecting thousands 
of Federal buildings and millions of people is faced with 
potential failures that if not immediately remedied by Congress 
will likely result in further loss of life.
    Again, the time for reports and hearings has passed, and if 
we are to succeed in preventing the next attack immediate 
legislative action to reform the FPS is required now.
    Thank you for the opportunity to testify, and I am 
available to answer questions.
    [The statement of Mr. Wright follows:]
                 Prepared Statement of David L. Wright
                             July 13, 2011
    Chairman Lungren, Ranking Member Clarke and Members of the 
committee: My name is David Wright. I am President of AFGE Local 918, 
the NPPD Union, which represents the dedicated men and women of the 
Federal Protective Service. I have been an FPS Law Enforcement Officer 
for the past 25 years. In the almost 10 years since the September 11 
attacks, the Federal Protective Service has faced many challenges. 
During the last 3 years the need for reform has been well documented in 
seven reports by the Government Accountability Office and the nine 
hearings by Committees of the House and Senate. The NPPD Union has 
produced a ``Chronicle of Federal Inaction'' which is a compendium of 
GAO Reports, Congressional hearings, and terror incidents at Federal 
facilities and paints a stark picture of much oversight and little 
action. It depicts an agency criticized, underfunded, and ill managed, 
but still fundamentally unreformed. The time for your action is now!
    In the last 18 months under the guidance of Under Secretary Beers 
there has been progress, including the selection of a highly qualified 
career law enforcement professional as the FPS Director. Both Under 
Secretary Beers and Director Patterson have made significant progress 
to better protect Federal employees, facilities, and members of the 
public who obtain services from their Government, but in doing so, they 
have used almost every tool in their toolbox. Today I am here on behalf 
of the dedicated law enforcement officers of the FPS to communicate to 
you that the time for reports and hearings has passed and immediate 
action by the Congress is required to prevent future attacks. The 
Senate Homeland Security and Government Affairs Committee has marked up 
a bill which is now awaiting action on the Senate floor. We urge this 
subcommittee and the full Homeland Security Committee to consider and 
adopt a comprehensive Federal Protective Service Reform Act as soon as 
possible.
            federal facilities face increased risk of attack
    Today our dedicated civil servants and the facilities where they 
work are clearly at heightened risk of attack. In the last 2 years, an 
IRS office in Austin was attacked by an airplane and there have been 
attacks by gunmen at the Pentagon and a Courthouse in Las Vegas. There 
were bombs left at a Courthouse in Spokane and a Federal Building in 
Detroit. Individuals parked and attempted to detonate truck bombs at a 
Courthouse in Springfield, Illinois; at an office building in Dallas 
where the Regional EPA Office is housed; and at a square in Portland, 
Oregon which is next to a U.S. Court of Appeals Courthouse. Just last 
month there was a plot to attack a Federal building in Seattle with 
automatic weapons and grenades. While a Military Entrance Processing 
Station was the focus of the plot, that building also houses a 
childcare center for Government employees and other Federal offices. 
These attackers were not deterred by armed contract guards, and their 
plan called for killing the guard as the first step in their attack 
plan.
    Fortunately, the FBI monitored the truck bombing plots, ensured 
real explosives were not present and arrested the perpetrators at the 
scene. In the Seattle plot it appears the FBI drew an inside straight 
when local law enforcement was alerted by a convicted felon who had 
been recruited to participate in the attack. As a result of this 
information the FBI was able to thwart the attack.
    These plots and attacks clearly indicate there are imminent threats 
to Federal workplaces. Had the FBI not detected the plans of the 
bombers in Springfield and Dallas, or been informed by a criminal of 
the plot in Seattle many lives could have been lost with tragic impact 
to both Federal employees and the public. None of these planned or 
actual attacks was deterred or detected by FPS, for there are simply 
not enough trained Federal Police Officers proactively patrolling the 
facilities we protect to detect or break up the terrorist planning 
cycle. While everyone in our Nation hopes our inordinately long lucky 
streak at detecting and interdicting planned attacks will continue, 
hope is not a method and we can't always be lucky. Immediate concrete 
legislative action by the Congress is required to give Under Secretary 
Beers and Director Patterson the additional tools they need to provide 
safe and secure workplaces for the over 1 million dedicated civil 
servants who work in the 9,000 FPS-secured facilities located in over 
2,100 American communities.
                    dangerously low staffing levels
    FPS is woefully short of the personnel necessary to properly 
protect Federal facilities, including those necessary to ensure the 
competent performance of the over 13,000 contract guards that assist 
with the facilities protection mission. There are simply not enough 
Inspectors and Police Officers in the field to reliably detect pre-
operational surveillance or break up an attacker's planning sequence 
through pro-active patrols. In fact Inspectors in many regions tell me 
they spend almost all their time on the security assessments, guard 
post inspections, completing reports and administrative requirements 
for contracting officer and coordination with facility security 
committees to explain and negotiate necessary security procedures. 
There is little time for patrol of facilities other than scheduled 
Operation Shields. Since 2003 there has been a significant decrease in 
the number of arrests made by FPS Officers, which is indicative of a 
much reduced proactive activity level due to reduced service hours and 
elimination of Police Officer positions. As an example of reduced 
service hours, in 2003 there were more than 10 major cities where FPS 
had 24-hour law enforcement coverage; now there are two. Those who want 
to attack Federal workplaces don't work bankers' hours and neither 
should FPS. Adequate staffing levels for extended service hours in the 
largest cities coupled with proactive patrol and frequent contact with 
tenants to determine unusual or suspicious circumstances are critical 
to preventing future attacks.
    Following the 1995 bombing of the Murrah Building in Oklahoma City, 
FPS was authorized approximately 1,450 staff. After 9/11 there was no 
increase in authorized staff. In 2003 FPS transferred to DHS with 
approximately 1,450 positions, with over 92% were assigned to the 
regions. In 2007 most of Police Officer positions, which provided 
proactive patrol, surveillance detection/deterrence and contract guard 
monitoring were eliminated. Today, FPS staffing is slightly over 1,225 
with only 80% assigned to the regions. For example, the number of 
acquisition and human capital staff who are on the FPS HQ payroll but 
do not report to the FPS Director, has more than doubled without 
anywhere near a 100% improvement in contract or personnel management.
    Unfortunately, FPS stands alone in the DHS as the only organization 
with less staff than it had at the Department's inception. While FPS 
was cut 18%, the administration and Congress increased the total number 
of DHS employees by 18%, from 162,550 in September 2004 to 191,658 in 
March 2011. It is time to recognize that the protection of Federal 
workplaces is of equal importance to other DHS missions. Had FPS 
increased at the same 18% rate as the Department it would have 1,711 
personnel and be much better equipped to properly mitigate the risk of 
attack.
    The below table illustrates differences in average buildings per 
Officer, the decrease in service and decrease in arrests between 2003 
and 2010. The decrease in arrests is attributed to the virtual 
elimination of proactive patrol and curtailed service hours--the 
offenses still happen but the perpetrator is not caught.

------------------------------------------------------------------------
                                                       2003       2010
------------------------------------------------------------------------
Buildings per Inspector/Police Officer............        7.7       11.0
GSA Managed Sq Ft per Officer.....................    322,000    426,000
Cities with Night and Weekend Service.............         12          2
Arrests by Officers/Inspectors (Lack of patrol          3,100      1,600
 results in fewer arrests)........................
------------------------------------------------------------------------

    After the ill-advised and dangerous 2007 attempt by the embedded, 
intransigent, and unaccountable bureaucrats at OMB to cut FPS staff by 
35% to a total strength of 950, Congress stepped in and established a 
minimum number of in-service field staff and a minimum total FPS 
personnel strength. As a result, Section 1628 of Public Law 112-10 
mandates that, no later than September 30, 2011, the Federal Protective 
Service shall maintain not fewer than 1,250 full-time staff and 935 
full-time Police Officers, Inspectors, Area Commanders, and Special 
Agents who, while working, are directly engaged on a daily basis 
protecting and enforcing laws at Federal buildings (referred to as 
``in-service field staff''). I have been informed by bargaining unit 
members in the regions that the actual number of Inspectors, Police 
Officers, Area Commanders, and Special Agents working in the field is 
barely 800. Apparently in the bizarre world of OMB and the DHS 
Headquarters bureaucrats, personnel assigned to the FPS Headquarters 
and GS-14 and -15 regional managers sitting at their desks can be 
considered in-service field staff directly engaged in enforcing laws, 
when even a simple reading of the statute indicates otherwise. 
Therefore, they have not provided the necessary funding to enable FPS 
to comply with the law and immediately hire an additional 135 Police 
Officers and Inspectors.
    The President's 2012 budget requested an increase of 146 positions. 
According to the Congressional Justification submitted with the budget, 
88 of the positions are for Inspectors to help to bring the regions 
that that have the highest risk-based need in alignment with other 
regions of similar scope and more evenly distribute the workforce 
allocation. The FPS transition to NPPD required the remaining 56 
positions to perform oversight and other support functions formerly 
provided by ICE as part of their appropriated base. These functions 
will now be accomplished by staff on the FPS payroll and paid through 
increased security charges to FPS protected facility tenants. Even with 
this increase in staff, at the end of 2012, FPS will still have less 
than 90% of the capability it had before 9/11.
    The fiscal year 2012 FPS Congressional Budget Justification also 
states: ``The projected Federal employee to contractor ratio of 1:10 
does not provide sufficient capability to assure contractor 
performance, particularly the 13,000 contract PSOs located at over 
9,000 buildings across the Nation. The fiscal year 2012 request will 
result in a Federal employee to contractor ratio of 1:9 which is the 
optimal ratio.'' While the FPS field staff will certainly welcome the 
long overdue and critically-needed staffing increase, a ratio of one 
Federal employee (including support staff, senior managers, and 
National Headquarters staff) to 9 contract guards is far from optimum. 
The below table illustrates historical ratios of FPS employees to 
contract guards. FPS was most successful at accomplishing its mission 
with a ratio in the range of three to five guards per FPS employee 
rather than the extremely high nine guards per FPS employee.

------------------------------------------------------------------------
                                                                 Guards
                    Fiscal Year                       No. of    per FPS
                                                      Guards    Employee
------------------------------------------------------------------------
Fiscal year 2000..................................      5,000          3
Fiscal year 2002..................................      7,000          5
Fiscal year 2011..................................     13,000         10
Fiscal year 2012..................................     13,000          9
------------------------------------------------------------------------

    I understand FPS has conducted an analysis of its staffing 
requirements that was approved by the Secretary which indicates the 
required staff necessary to properly protect Federal employees and 
facilities against attack is approximately 2,300. This would provide a 
sufficient level of proactive patrol and monitoring of contract guard 
performance. At 2,300 employees FPS would have almost the same five 
guards per FPS employee ratio as existed prior to 9/11.
    In fiscal year 2011 FPS is projected to have 1,225 personnel and 
approximately $250 million to protect 9,000 facilities and over 1 
million employees Nation-wide. Contrast this with the over 1,600 
Capitol Police with $292 million, to protect the Capitol and 
Congressional Offices in a 12-block area of Washington, DC; and the 
Secret Service has over 1,300 officers in its Uniformed Division, to 
protect its assigned facilities in Washington, DC. The Veterans Health 
Administration has over 2,500 Police Officers to protect their 154 
medical centers Nation-wide. Congress had ensured our veterans 
hospitals are adequately protected, now it is time to provide at least 
the same protection to other Federal employees and facilities.
     hiring and retaining top-notch inspectors and police officers
    FPS stands alone within the DHS as the only law enforcement 
organization that has not been authorized law enforcement retirement 
coverage. Additionally, other agencies with comparable facility 
protection missions such as the Capitol Police, Secret Service 
Uniformed Division and Park Police have been granted that retirement 
coverage. Just as Congress recognized with CBP that the lack of this 
coverage affected their ability to recruit and retain high quality 
employees it should do the same with FPS. A CBO analysis of the 
coverage proposed in the Senate SECURE Facilities Act indicates no 
additional cost for the first 20 years--in fact the additional required 
retirement contributions by employees would actually reduce the deficit 
through increased revenue during that period.
                  dysfunctional fps funding structure
    FPS is funded through offsetting collections. The basic services 
provided to all protected facilities are provided through an assessment 
per square foot of space occupied by an agency much like a local 
property tax rather than a direct fee for service. Facility 
countermeasures, including contract guards, are funded by dividing the 
cost for those services by the square feet in the building to determine 
each tenant agency's share. This is then collected from the agency on a 
monthly basis. The funding sources and collection authorities should be 
included in an FPS Authorization Act rather than only on a year-to-year 
basis in annual Appropriations Acts. Of the $1.2 billion FPS collects 
in security charges less than $300 million goes to actual FPS 
operations. The remainder is collected and then passed directly through 
the FPS account to pay for contract guards and other security 
countermeasures. Relying only on increased basic fees, as OMB has done, 
ultimately reduces the basic security services agencies can afford and 
increases the risk of their employees and facilities to attack. It also 
complicates the agency budget process since by the time OMB approves 
any increase the agency budgets have been submitted. An appropriated 
base for future increases while maintaining the existing basic and 
building specific charges could resolve this and other issues. Other 
short-term alternatives include extending the basic security charge to 
DHS-owned facilities and all unoccupied GSA space in their owned and 
leased facilities.
          contract guards not adequately monitored or trained
    The GAO has clearly documented the risks inherent in depending on 
contract guards as a force multiplier without adequate Government 
inspection, performance monitoring, and training. Additionally since 
contract guards lack the authority to arrest, FPS must have sufficient 
staff to respond to guard reports of suspicious or unusual activity and 
take appropriate enforcement action. With additional staff, FPS would 
have significantly higher assurance guards are performing and are 
trained to the specifications of the contract, through robust 
inspection and monitoring protocols. Guard training has been noted as 
inadequate with potentially tragic results as evidenced by an incident 
in Detroit where a Detroit Police Department Sergeant moonlighting as a 
FPS Contract Guard unwittingly brought a bomb into a major Federal 
building. Contract guards should not have the sole responsibility for 
all dedicated facility patrol, access control, CCTV monitoring, and 
weapons detection at all facilities--to include complex buildings with 
established high and very high risks. Roving patrol and weapons 
detection positions at the highest-risk facilities should be performed 
by Federal Police Officers, just as they are at the White House, the 
Capitol, and Congressional Office Buildings, and the Pentagon. In-
sourcing these positions at select facilities to use FPS Police 
Officers would materially reduce the risk of successful attack using 
tactics similar to those used by the GAO. Additionally, these entry 
level Police Officers would have a natural career path, building on 
their experience as Federal officers, to the Federal Protective Officer 
and Inspector positions, creating an initial accession position within 
FPS. The use of contract guards can continue for monitoring functions, 
for agency-specific requirements, and at lower-risk facilities with 
guard requirements such as Social Security Offices.
    facility security committees fail to approve necessary security 
                                measures
    The GAO reported Facility Security Committees, which are not 
composed of security professionals, have responsibility for approving 
security countermeasures to reduce that facilities vulnerability to 
attack. Additionally, due to budget pressures, agencies had competing 
uses in addition to security, for their funds. As an example, at an 
unguarded courthouse in a western State, there were gunshots directed 
into a Congressional office window. FPS has proposed a nighttime guard 
for that facility each year since initial building planning in 2002, 
but it has never been implemented by the FSC. Action to place DHS in 
charge of this process, coupled with a means to collect the cost of 
countermeasures deemed mandatory by the ISC are necessary to ensure 
facilities are properly protected.
role, mission, and duties of the fps not clearly established in statute
    The FPS should have the same clear statutory guidance as other law 
enforcement agencies. A FPS Authorization Act should include the 
mission, duties, and powers of the Director relative to training and 
the primary functions of investigation, law enforcement patrol, 
emergency plan assistance, security countermeasures, suitability 
adjudication of guards and building service contractors, contracting 
for guard service, awareness training for Federal employees and 
facility security assessments.
qualification, training, and performance standards for armed or unarmed 
                 contract guards at federal facilities
    There are no codified standards for the use of contract guards to 
protect Federal facilities. In addition to FPS, several agencies 
contract for their guard services and in many cases have less rigorous 
training and performance standards than FPS. The FPS should be required 
to establish minimum qualification, training, and performance standards 
for the use of armed contract guards to protect Federal facilities 
subject to ISC standards. The ISC in conjunction with the FPS should 
establish companion standards for unarmed contract guards. 
Additionally, the FPS should be responsible for providing all armed 
guard services to non-court facilities subject to ISC standards. 
Establishing standard requirements and limiting which agencies can 
procure guard services will allow the Government to achieve economies 
of scale, reduction of other agency contracting/security staff, and 
would likely result in considerable cost savings.
      isc guidance misinterpreted by facility security committees
    The Interagency Security Committee (ISC) recently promulgated new 
guidance on the establishment of Facility Security Level (FSL). The FSL 
determines what level of protection a building should have. Members of 
the GSA and other agency security staff have stated that if a facility 
is not going to implement required security standards for that level, 
the FSL level should be downgraded as a risk acceptance measure. This 
has the effect of hiding, not mitigating risk. DHS should be assigned a 
clearly defined management and oversight role for the ISC to ensure 
consistent implementation of its critical security guidance, rather 
than the ``consensus basis'' under which it currently operates. 
Facility Security Levels should be set by the professionals in the 
agency that provides law enforcement and security to the facility in 
accordance with ISC guidance.
      dhs lacks statutory authority to enforce security standards
    When President Clinton issued Executive Order 12977 in 1995 
establishing the ISC, he specified that the GSA Chair the Committee 
with Director (then Assistant Commissioner) of FPS as a full member of 
the ISC. He also made the Director of FPS responsible for monitoring 
Federal agency compliance with the policies and recommendations of the 
ISC. When the Bush administration revised the order upon the creation 
of DHS, the critical monitoring role was eliminated. The duties, roles, 
and responsibilities of the committee and the chair should be codified 
to promote efficiency and clarity in the provision of facility security 
across all agencies. The DHS Secretary should be given clear authority 
for oversight and control of the ISC.
 agencies security organizations attempt to provide services that fps 
                       delivers more efficiently
    Since 2001 the number of non-DOD security specialists and police 
officers has increased in the Government by over 3,200 positions. For 
example, CBP security staff has increased by over 200% CIS by over 
135%; ICE by over 260% and FEMA by over 92%. Even GSA--whose security 
mission was transferred with FPS to DHS--increased its security staff 
by over 650%.
    Many of these security positions appear to duplicate functions and 
services provided by FPS, and may represent inefficient agency empire 
building. Some agencies have even claimed that since they have security 
specialists they should not have to pay security charges. This is like 
a homeowner buying a shotgun and garden hose, then claiming he should 
be exempt from paying taxes for police and fire protection. Ad hoc 
security staff and procedures can create additional vulnerabilities and 
make coordination of Government-wide standards difficult. It was even 
reported that the DHS Office of Security attempted to create its own 
law enforcement agency to protect its GSA-owned space, rather than use 
FPS for the service. The ``I will take care of my agency and everyone 
else be dammed'' attitude prevalent in some of these uncoordinated 
security staffs increase both the overall cost and the risk that we may 
fail to put the pieces together to prevent an attack. These separate 
organizations each build their own supervisory and overhead staff and 
in total cost more than placing the responsibility with a single 
agency. A single provider like FPS can achieve Nation-wide economies of 
scale that elude most non-DOD security staffs potentially resulting in 
substantial savings.
     recommended immediate congressional actions to prevent attacks
    The critical tools necessary for successful protection of Federal 
workplaces include sufficient FPS law enforcement officers, measures to 
allow FPS to recruit and retain top-notch employees, tools to properly 
manage the contract security force until many of these positions can be 
in-sourced, codification of the FPS mission, and delineation of the 
responsibilities of the Interagency Security Committee and facility 
security committees.
    1. Provide sufficient minimum FPS staffing levels to properly 
protect Federal facilities:
    <bullet> The Congress should immediately notify the DHS Secretary 
            and the Director of OMB that staff assigned to FPS HQ and 
            GS-14 and -15 managers are not field staff; the current 
            staffing situation is unacceptable; and inform them they 
            must comply with the law which requires 935 in-service 
            field staff before September 30, 2011.
    <bullet> Until an FPS authorization bill that establishes the FPS 
            missions and sets minimum staffing levels is enacted, 
            restore the annual Appropriations Act rider setting minimum 
            levels of in-service field staff. For fiscal year 2013 this 
            level should be set to at least 1,450 total staff with a 
            minimum of 1,325 in-service field staff to match the number 
            of positions FPS came to DHS with. Restore full-time Police 
            Officer positions responsible for proactive patrol coupled 
            with extended service hours in New York City and other 
            major cities.
    2. Authorize FPS Officers Law Enforcement Retirement on the same 
basis as CBP Officers.
    3. Establish standard minimum requirements for contract guards at 
all Federal facilities:
    <bullet> Assign FPS responsibility to establish minimum 
            qualification, training, and performance standards.
    <bullet> Achieve economies of scale by mandating FPS as the source 
            of armed guards at all facilities under ISC standards.
    <bullet> Modify procurement rules to ensure the most effective and 
            efficient providers with proven track records of superior 
            performance fill these critical requirements.
    4. Clearly establish an FPS funding mechanism that results in 
sufficient security measures to prevent future attacks:
    <bullet> Consider an appropriated base for increased staff 
            requirements.
    <bullet> Consider extending the basic security charge to DHS-owned 
            facilities and all unoccupied GSA space within their owned 
            and leased facilities.
    5. Codify the roles and responsibilities of the ISC:
    <bullet> With the mandate of section 1315 of title 40 USC that the 
            DHS protect all Federal facilities, the ISC should be 
            codified as well.
    <bullet> FPS should be restored to its roles in the original 
            directive.
    <bullet> Clear guidance should be provided that DHS is in charge of 
            security standards for Federal facilities. Federal facility 
            security standards are too important to be left to a 
            consensus decision by ad hoc committee members.
    6. Establish FPS as the primary law enforcement and security 
provider for facilities subject to ISC standards:
    <bullet> Achieve personnel and other cost savings using the FPS 
            National economies of scale to provide facility security 
            and law enforcement services.
    <bullet> Maintain current status for U.S. Marshals, Secret Service, 
            and FBI.
    7. Require critical security positions provided by contract guards 
be in-sourced:
    <bullet> Just as Congress and the White House use Federal Police 
            Officers for dedicated patrol and weapons detection 
            positions, all high-risk Federal facilities should use 
            these highly qualified law enforcement personnel rather 
            than depending entirely on contract guards to perform these 
            functions.
    <bullet> Direct the Department to in-source these positions.
    <bullet> Implement the transition at the rate of 300 officers a 
            year.
                                summary
    The protection of Federal employees, facilities, and the members of 
the public who seek services from their Government has been an 
essential function of the Federal Government since 1790 when as a 
result of legislation, six night watchmen were hired to protect the 
buildings in Washington, DC intended for Government use. Congress again 
recognized this solemn obligation when it gave the mission of 
protecting Federal facilities to DHS. In placing this mission with the 
Department, Congress also recognized making one agency responsible 
gives us the best chance of connecting the dots before a future attack. 
Additionally, in these times of fiscal constraint, vesting this 
responsibility in one organization consumes fewer resources than every 
agency building their own security capabilities, a crucial 
consideration.
    The dedicated men and women of FPS need your immediate help to 
enable our success and to protect Federal employees across the country. 
Clearly, with the significant increase in plots and terrorist incidents 
affecting Federal facilities, legislation to give DHS the necessary 
tools and staff is critical. Since 2003 Congress has found the 
resources to increase the DHS staff by 18% while FPS was cut by 18%. A 
downpayment of at least the same 18% staffing increase the rest of DHS 
received since 2003 would be a good start.
    Mr. Chairman, Federal Buildings are a real and symbolic target of 
domestic and international terrorist and criminal attacks. The 
attacks--whether successful or thwarted, covered by the press or not--
are real threats and have already cost peoples' lives. The sole Federal 
agency charged with the critical mission of protecting thousands of 
Federal buildings and millions of people from these terrorist and 
criminal attacks is faced with potential failure that if not 
immediately remedied by the Congress, will likely result in tragic loss 
of life.
    If we are to succeed in preventing the next attack, immediate 
legislative action to reform the Federal Protective Service is required 
now!
    Again, thank you for the opportunity to testify at this important 
hearing.
    The document chronicling GAO Reports and Congressional hearings to 
reform FPS in recent years is attached.*
---------------------------------------------------------------------------
    * The document has been retained in committee files.

    Mr. Lungren. Thank you very much, Mr. Wright.
    We will now begin our questioning, and I yield myself 5 
minutes for questions.
    Let's see, Mr. Wright, as an FPS law enforcement officer 
did you undergo training in X-ray and magnetometer detection?
    Mr. Wright. Through the years since coming on board in 
1986--let me back up. When I came on board in 1986 we had 
transitioned from FPS employees standing at X-ray machines to a 
mobile patrol force. I have relatively little X-ray and 
magnetometer training.
    Through the years we get the training in an effort to help 
train the contract guards, and a lot of it is more familiarity.
    Mr. Lungren. Do you think you get sufficient training such 
that you can do that job of helping the contract guards or to 
be able to observe their performance?
    Mr. Wright. At this time, no.
    Mr. Lungren. Okay. You have the rank of inspector?
    Mr. Wright. Yes.
    Mr. Lungren. As an inspector, can you tell me how often you 
would visit a facility to which you were assigned? Because that 
came up in the last panel about how often these inspections 
take place.
    Mr. Wright. Right. Actually, I have been out of the field 
for quite some time now. Going by facility security levels, a 
typical inspector should visit his--the security levels 
basically dictate the----
    Mr. Lungren. Frequency of the----
    Mr. Wright [continuing]. Frequency that an inspector visits 
that property. So----
    Mr. Lungren. So at least on that level there is some risk 
assessment going on. If it is a higher level you would visit 
more often.
    Mr. Wright. Right. On a daily basis--Federal buildings, 
Federal courthouses, regional headquarters, such as that.
    Mr. Lungren. Okay.
    Mr. Amitay, one criticism of the FPS is that there is a 
failure to share information, or at least it has been alleged 
that there has been a failure to share information with the 
contractors by FPS about training and certification information 
with previous contract guards when a contract is taken over by 
a new contractor. Is that true?
    Mr. Amitay. Yes. By Executive Order incumbent guards have 
to be kept on a contract if they are qualified. Yet, when the 
successor contractor, though, takes over that contract he 
doesn't know which of these guards have the proper 
certification or required level of training.
    Mr. Lungren. You are not allowed to have that information, 
or----
    Mr. Amitay. It is not provided by FPS. I am pretty sure it 
is allowed, but FPS does not provide information on security 
officer certifications and training completions to other 
contractors when it comes to bidding for a facility on a new 
contract. This is something that the contractors have asked FPS 
for this information because then they could more accurately 
structure their bids and it would be more precise and be more 
cost-efficient.
    Mr. Lungren. Now, let me talk about training, because that 
has been a big bugaboo around here. Everybody seems to believe 
that we don't have the data to find out whether there has been 
training.
    There appears to be criticism of the supervisory level of 
ensuring that the training has been done. There seems to be 
some suggestion that training may be uneven across different 
contractors and different facilities.
    How do you respond to that? What has your observation been? 
Some would say, well, if a contractor holds himself or herself 
out to be certified you would presume they would take with that 
the responsibility of training their people to the level 
adequate to perform the task for which they have contracted.
    Mr. Amitay. Yes. With training there are a lot of issues: 
Non-uniformity, lack of training. One issue that has been 
raised today is X-ray-mag training. When Mark Goldstein said 
that when they did--with Operation Shield and they went and 
they saw that IED components were able to get through the 
screening, but then only two of the 11 contractor security 
officers on post actually had the training. Well, X-ray-mag 
training is the responsibility of FPS to provide, and it is 
critical. So this critical training is FPS' responsibility.
    Now, one solution that has been offered by contracting 
communities--and it is not a novel solution; it is something 
that States are doing already when it comes to training that is 
required for certain licensing, weapons qualifications, baton, 
handcuffs--is to train the trainer and have certified trainers 
out there. Private trainers who are then certified by FPS could 
then be a lot more flexible in terms of scheduling the 
training, they would be a lot more available to provide the 
training, and it would be less costly. We believe that is 
something that FPS should look at because training is an issue, 
and especially with the critical X-ray-mag training, which 
right now FPS is required to provide but really doesn't have 
the resources or personnel to provide.
    Mr. Lungren. If there is one thing that seems to be in 
agreement across the board in a bipartisan way here and also 
with witnesses that we have had it is that we have a problem 
with training, that we better pay more attention. I don't care 
whether you call it RAMP, or un-RAMP, or what do you call it, 
it seems to me training is a crucial part of this thing that we 
need to exercise oversight on and ensure that that is being 
done.
    My time is expired. The gentle lady----
    Ms. Clarke. Thank you very much, Mr. Chairman.
    Mr. Amitay, in your testimony you began by stating that the 
National Association of Security Companies is the leading 
advocate for raising standards for the licensing of private 
security firms and the registration, screening, and training of 
security officers. You also state that the vast majority of 
contract security firms employ many former law enforcement and 
military personnel in management and as security officers.
    So how do we--how do we explain the poor performance of 
contract guards hired by DECO who allowed the bag of explosive 
material to sit inside the McNamara Building in Detroit for 21 
days?
    Mr. Amitay. I think you would have to take that up with 
DECO.
    Ms. Clarke. Are they part of your association?
    Mr. Amitay. No, they are not.
    Ms. Clarke. Okay.
    Mr. Amitay. I would note that that officer also is a former 
law enforcement officer who then obviously had additional law 
enforcement training and experience.
    Ms. Clarke. I got you. I just wanted to get a sense of the 
scope, and breadth, and depth of your association so that if 
your association were to identify member companies who were bad 
actors and that don't meet your standards in the industry are 
there any internal provisions within the association that sort 
of move those types of companies out of the way. Because 
clearly DECO, notwithstanding their personnel, was not up to 
the job.
    Mr. Amitay. Well, NASCO has said at previous hearings that 
if a contractor is not living up to the standards of the 
contract then we fully support FPS taking all necessary 
action----
    Ms. Clarke. Yes. Well, my question is, how does NASCO hold 
its members accountable for their poor performance?
    Mr. Amitay. NASCO is a trade association, and it is not to 
the point where it is a--it governs its members in any way.
    Ms. Clarke. Okay.
    Mr. Amitay. But the members of NASCO tend to be the larger, 
more national companies who have their own internal standards 
that are much higher than are required by law.
    Ms. Clarke. Yes. I got you. You know, you have an 
association and that association is associated with a certain 
quality. You have members in your association that don't meet 
that standard it kind of is a reflection on the association. 
That is the only point I was trying to raise.
    Mr. Amitay. Those type of members tend not to take on the 
added expense to join an association such as NASCO.
    Ms. Clarke. That is good to know.
    Mr. Wright, several reports over the years have been raised 
with concerns about the fairness of basic security flat fee and 
does not take--a flat fee which does not take into account the 
degree of risk at specific buildings, the level of service 
provided, or the cost of providing the service. FPS workload 
studies have estimated that the agency spent about six times 
more hours protecting higher-risk buildings than lower-risk 
buildings but the fees for both were the same.
    So my question to you is: What would you recommend to 
reasonably change the fee system to reflect those varying 
costs? I think a lot of what has been discussed at least within 
this panel has to do with, essentially, how you fund it.
    Mr. Wright. Right. My initial recommendation would be let's 
go to an appropriations setup.
    This fee funding mechanism is antiquated. I would really 
like to see the overhead that is put into processing these 
payments. So initially I would say I would like to move to 
direct appropriations.
    But if we stay with fees we--for lack of a better word, we 
view it as--or we look at it as like a property tax. If a city 
has taxes on all their residents and there is a crime that is 
prevalent in one community, that community is going to get the 
focus of the services, whereas where crime is not so prevalent 
they are paying the same amount. I don't see a way to tailor 
those fees to the more risk-averse properties.
    Ms. Clarke. Okay. Then let me ask you, you recommend that 
the FPS Federalize guard positions at high-risk facilities--
level three and level four buildings--and increase Federal 
oversight of contract guards at lower-security facilities--
level one and level two buildings. How do you believe that this 
change would help FPS address its challenges with its contract 
security personnel?
    Mr. Wright. Federal police officers at these X-ray and 
magnetometer stations--let me go to what you have here in the 
Capitol. You have Federal police officers that have been 
through the academy--the Federal Law Enforcement Training 
Center in Glynco, Georgia, and they are vested in a Federal 
career. The training is monitored by the Government and updated 
regularly. So that is the importance of having Federal officers 
at these security checkpoints at higher-level facilities.
    Ms. Clarke. Well, thank you for your response, gentlemen, 
and I yield back the balance of my time.
    Mr. Lungren. Gentlelady yields back.
    Now I would recognize Mr. Long, for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman.
    Mr. Amitay, you--some people have argued that FPS should 
more closely resemble the Federalized security screening model 
that is employed by TSA, and in your testimony you argue that 
bringing FPS security in-house through the creation of a 
Federalized FPS security force is not a solution to the current 
challenges in the contract guard program. In your view, would 
Federalizing all or some of the contract guards in FPS-
protected facilities improve security?
    Mr. Amitay. No.
    Mr. Long. Do you want to elaborate? No--I am just kidding.
    Another question I have for you is on--in your testimony 
you say that FPS fails at consulting with contractors who often 
have superior knowledge and experience. What do you mean by 
that?
    Mr. Amitay. Well, for instance, these contractors--it is 
not like FPS is their only business, and it is not like 
security services are only contracted out by FPS. These 
contractors have a lot of experience with other Federal 
agencies in the commercial world in terms of supplying contract 
officers to guard and protect buildings. It is somewhat of a 
transportable job, and so they are able to--they have 
experience and knowledge about amount of supervision that is 
necessary, amount of training that is necessary.
    Then also in terms of training--I mean, they have their own 
training programs that developed over years and years, and 
these are very----
    Mr. Long. Companies like DECO?
    Mr. Amitay. I don't know about DECO. I am talking about 
these--the large companies, the National companies who are 
members of NASCO. These companies that are--many of them are 
FPS contractors. They have their own X-ray-mag training 
programs. They have been certified by States to provide 
training.
    There is a lot that they can provide in terms of their 
working experience and expertise to FPS, and they have to other 
agencies. But so far the level of receptiveness by FPS to work 
with contractors on common issues has not been very good at 
all. We are hoping it can get better because it can lead to 
better performance and more efficient and effective 
performance.
    Mr. Long. So the contractors such as the one in Detroit, 
where they let the bomb come in the building and sat in lost 
and found for 3 weeks or whatever it was, they have the 
expertise that FPS should be reaching out to to learn things?
    Mr. Amitay. Well, FPS can review each contractor's 
proposals and training programs individually. Who knows? The 
DECO program, they might say this isn't sufficient. But that is 
an individual incident and so it is really hard----
    Mr. Long. But it could have been very disastrous----
    Mr. Amitay. Oh, I agree. Also, the fact that it took 3 
weeks for an FPS inspector to find that package also points out 
another problem. I mean, I would think a building like that 
would have inspections more regularly than once every 3 weeks.
    Mr. Long. I will ask you the same thing I asked the--one of 
the witnesses from the earlier panel: Do you think that one 
organization trying to oversee 9,000 buildings and 1.4 million 
visitors and employees--does that make common sense to you, I 
mean, in one group?
    Mr. Amitay. I think that is an excellent question. Right 
now a big issue at FPS is the ability to delegate to other 
agencies the--what FPS says, ``Okay, HHS or HUD, this is your 
building. We are responsible for protecting it but we have a 
process called delegation where you can hire the contract 
security officers and you can manage the contract and you can 
supervise them.'' That has found to be a very successful 
program.
    It seems, though, now that the trend is to pull back those 
delegations, and that would only increase the responsibilities 
of FPS. So I agree, that is a very interesting issue.
    Mr. Long. I would like to look into that further.
    Also in your testimony you say that FPS has a history of 
withholding information from contractors with regard to 
disciplined officers. As such it is virtually--and I am reading 
from your testimony--virtually impossible for FPS or 
contractors to defend employee suspensions. Can you explain 
what you mean by that?
    Mr. Amitay. Yes. In situations like that you might have a 
situation where a--at, say, a Federal building one of the 
tenants there, you know, an agency, says to the contractor, 
``Hey, your guard was not doing his job,'' or, ``He fell 
asleep,'' or perhaps even an FPS inspector noticed that a guard 
was not performing correctly. So then the guard--oftentimes the 
guard companies will say, ``Well, we need to terminate this 
individual.'' Well, that individual then, if he is unionized or 
not, would might file a grievance and fight that suspension or 
termination.
    Well, then during that process--during that arbitration or 
that union proceeding--the contractor would look to, then, the 
tenant agency or FPS to provide support saying, ``Hey, it was 
your person who saw the guard sleeping. Can you please, you 
know, testify to that effect or provide some information?'' But 
information like that has been lacking and that has created a 
real problem. There needs to be better cooperation between FPS 
and tenant agencies----
    Mr. Long. It looks like that information would come from 
the contractor, right, or----
    Mr. Amitay. Well, if the contractor did not see the 
offending action it is very hard--if the employee says, ``No, 
that didn't happen,'' how can the contractor say, ``Well, yes 
it did happen,'' then they would ask for evidence----
    Mr. Long. You are saying FPS----
    Mr. Amitay [continuing]. And then FPS says, ``Well, we are 
not going to get involved in your employer-employee 
relationship.''
    Mr. Long. Don't have a dog in that fight----
    Mr. Amitay. In fact, they do, because they essentially 
started the fight.
    Mr. Long. Okay. Thank you.
    I yield back what time I don't have.
    Mr. Lungren. He gets more liberal all the time.
    Mr. Marino is recognized for 5 minutes.
    Mr. Marino. Thank you, Chairman.
    Gentleman, let me preface something before my questions and 
comments are posited. I worked as a prosecutor at the local, 
State, and Federal Government as U.S. attorney and district 
attorney so I am very familiar with the process. I still 
consider myself to be a law enforcement guy, and I have worked 
very closely with contract officers who were good officers and 
very closely with, like, Federal employees who were top-notch 
employees, as well.
    So I think we have to be careful here about--I don't want 
to see any pointing of fingers because for every mishap that we 
see in the one side of this I can point out several to the 
other side of this, as well. We are human beings and human 
beings make mistakes.
    I do have a problem with inventories not being reviewed on 
a frequent basis and analyzed, because you are--we could have 
had a catastrophe there. But that is a procedure that I think 
has to be implemented--reviewed frequently and analyzed, and 
then that report sent off to--if it is a contractor or 
regardless if it is not subcontracted--sent off to the main 
agency so they can review that, as well.
    But, Mr. Amitay, would you agree with me that most if not 
all the officers--and I am referring to the officers, agents, 
all one--have law enforcement experience or have come out of 
college with a degree in criminology or law enforcement?
    Mr. Amitay. I don't have that information, but, you know, 
obviously all officers meet the requirements set by FPS in 
terms of educational background, in terms of training, and I 
think that, you know, the Federal Government is moving to a 
standard where a degree in criminology or previous law 
enforcement or an armed security officer employment would be a 
requirement to be a contract security officer for FPS.
    Mr. Marino. So there are a myriad of people out there in 
law enforcement, whether they are retired from the previous 
position, or dissatisfied, or just decided to make a change. I 
would have to imagine that both the Federal Government and 
contractor who would have a plethora of people from which to 
choose, as opposed to picking someone who has no experience and 
that they will have to train----
    Mr. Amitay. Exactly. I think with full military--with the 
vets coming home----
    Mr. Marino. I have military in there, too. I mean, you just 
don't take a blue collar worker off the street and hire that 
individual because you have experienced people, whether it is 
military, law enforcement, or education-wise to fill these 
positions.
    There is no shortage of people out there looking for work 
in these positions? I guess that is my question.
    Okay.
    Mr. Wright, I do sympathize with you and the decrease in 
the personnel from the switch. I mean, we talk about decreasing 
the cost but we have to be smart; even though we are almost $15 
trillion in debt we can't be foolish and step over dollars to 
pick pennies up. We have to be wise enough to prioritize.
    But I am going to ask you a question, and please don't take 
it personally, but I am going to ask you to take off your union 
hat for a moment, and do you see a problem with having 
subcontractors hired and not people that are hired into the 
Federal Government that would be members of the union?
    Mr. Wright. Repeat the question, please.
    Mr. Marino. Do you have a problem with hiring--with seeing 
the Federal Government hiring contract individuals as opposed 
to hiring Federal employees that will become a member of the--
members of the union?
    Mr. Wright. I think the problem with hiring contractors 
now--and I have testified to it several times--is the lack of a 
training standard and the lack of certification. As it stands--
and I will go back to Kansas City, where I am from--if an 
individual wants to work as a security officer in Kansas City 
he goes to the Kansas City Police Commission and gets his 
commission and goes through the training by FPS and stands 
post. You drive 50 miles up the road and the requirement to get 
a St. Joseph, Missouri, police commission--or law--or 
watchman's commission is to have a Kansas City commission.
    Mr. Marino. Okay. I understand that, sir.
    Chairman, would you indulge me for 30 seconds, please?
    But isn't there a standard that contractors have to follow 
pursuant to the Federal Government? The Federal Government has 
to have a standard, whether it is a Federal employee hired that 
said, I need you to fill that position, or a contractor to fill 
that position.
    Mr. Wright. No.
    Mr. Marino. There is no standard?
    Mr. Wright. No. Security officers--and I hope we are on the 
same wavelength here----
    Mr. Marino. I don't think we are.
    Mr. Wright. For a security officer to work in Kansas City 
he must have a Kansas City local commission. For a security 
officer to work in St. Louis he must have a St. Louis 
commission----
    Mr. Marino. Okay. But isn't there a standard from the 
Federal Government whereby if those individuals do not measure 
up to that level of training at the Federal Government that 
they have to be trained to that level of the Federal 
Government, or am I missing this completely?
    Mr. Amitay, jump in here if you have an answer to this.
    Mr. Amitay. To become an FPS officer--security officer--you 
need to have a B.S. degree or 3 years of security experience or 
law enforcement or military service. In addition, you have to 
qualify through any certifications required by FPS in all 
training. That is weapons qualifications, 128 hours of 
training.
    Mr. Wright. You have answered my question.
    Gentlemen, believe me, I sympathize with both of you. I am 
a law enforcement guy. We need to see that you have the 
resources to protect us and I am one of the individuals that is 
going to be fighting for that. Thank you.
    Chairman, thank you for the extra time.
    Mr. Lungren. Yes, sir.
    Well, that concludes our questions, so I thank the 
witnesses for your valuable testimony and the Members for their 
questions--the Members of the committee.
    We have some additional questions for the witnesses, and we 
would ask you to respond to these in writing. The hearing 
record will be held open for 10 days and this subcommittee 
stands adjourned.
    [Whereupon, at 12:01 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
